<html>
<title> - CHINA'S PERVASIVE USE OF TORTURE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                    CHINA'S PERVASIVE USE OF TORTURE
=======================================================================

                                HEARING

                               BEFORE THE

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 14, 2016

                               __________

 Printed for the use of the Congressional-Executive Commission on China
 
 
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.cecc.gov
         
                             ______________
                             
                             
                       U.S. GOVERNMENT PUBLISHING OFFICE
99-773 PDF                    WASHINGTON : 2016                       


________________________________________________________________________________________              
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1572657a55766066617d7079653b767a783b">[email&#160;protected]</a>  
             
              
              
              
              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

House

                                     Senate

CHRIS SMITH, New Jersey, Chairman    MARCO RUBIO, Florida, Cochairman
ROBERT PITTENGER, North Carolina     TOM COTTON, Arkansas
TRENT FRANKS, Arizona                STEVE DAINES, Montana
RANDY HULTGREN, Illinois             JAMES LANKFORD, Oklahoma
DIANE BLACK, Tennessee               BEN SASSE, Nebraska
TIM WALZ, Minnesota                  DIANNE FEINSTEIN, California
MARCY KAPTUR, Ohio                   JEFF MERKLEY, Oregon
MICHAEL HONDA, California            GARY PETERS, Michigan
TED LIEU, California

                     EXECUTIVE BRANCH COMMISSIONERS

                 CHRISTOPHER P. LU, Department of Labor
                   SARAH SEWALL, Department of State
                STEFAN M. SELIG, Department of Commerce
                 DANIEL R. RUSSEL, Department of State
                  TOM MALINOWSKI, Department of State

                     Paul B. Protic, Staff Director

                Elyse B. Anderson, Deputy Staff Director

                                  (ii)
                             
                             
                             C O N T E N T S

                              ----------                              

                               Statements

                                                                   Page
Opening Statement of Hon. Christopher Smith, a U.S. 
  Representative From New Jersey; Chairman, Congressional-
  Executive Commission on China..................................     1
Lewis, Margaret K., Professor of Law, Seton Hall University 
  School of Law..................................................     4
Jigme Gyatso, Tibetan Buddhist Monk; Human Rights Advocate; and 
  Filmmaker......................................................     8
Yin Liping, Falun Gong Practitioner..............................    10
Franks, Hon. Trent, a U.S. Representative From Arizona...........    12
Yin Liping (continued)...........................................    12
Richardson, Sophie, China Director, Human Rights Watch...........    15

                                APPENDIX
                          Prepared Statements

Lewis, Margaret K................................................    32
Jigme Gyatso.....................................................    38
Yin Liping.......................................................    41
Richardson, Sophie...............................................    45

Smith, Hon. Christopher, a U.S. Representative From New Jersey; 
  Chairman, Congressional-Executive Commission on China..........   104
Rubio, Hon. Marco, a U.S. Senator From Florida; Cochairman, 
  Congressional-Executive Commission on China....................   105

                       Submissions for the Record

Written Testimony Submitted by Ms. Geng He, Wife of Lawyer Gao 
  Zhisheng, April 14, 2016.......................................   107

Witness Biographies..............................................   109

 
                    CHINA'S PERVASIVE USE OF TORTURE

                              ----------                              


                        THURSDAY, APRIL 14, 2016

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 2:29 p.m., 
in Room 210, HVC, Hon. Christopher Smith, Chairman, presiding.
    Also Present: Representatives Franks, Hultgren, and Walz.

      OPENING STATEMENT OF HON. CHRISTOPHER SMITH, A U.S. 
    REPRESENTATIVE FROM NEW JERSEY; CHAIRMAN, CONGRESSIONAL-
                 EXECUTIVE COMMISSION ON CHINA

    Chairman  Smith. The Commission will come to order. Good 
afternoon to everybody. Thanks for being here.
    Gao Zhisheng's account of the torture he experienced is 
shocking, offensive, and inhuman. From the time he was first 
arrested in 2006 until his provisional release in 2014, Mr. Gao 
was regularly hooded and beaten, shocked with electric batons, 
had toothpicks inserted in his genitals, was sleep deprived and 
malnourished, and his life was threatened repeatedly by guards 
and fellow prisoners.
    Mr. Gao was tortured because he dared to represent 
persecuted Christians and Falun Gong practitioners, and because 
he was critical of China's legal system. Gao wanted what was 
best for China, but he got the worst.
    Mr. Gao's wife, Geng He, submitted testimony to this 
hearing, and I urge all of you to read it. It is over on the 
side and we will make it a part of the record without 
objection.
    It is for Gao Zhisheng and the many other victims of 
torture that we are holding this hearing today. We are here 
today to shine a light on the brutal, illegal, and dehumanizing 
systemic use of torture in China. We shine a light in the 
dictatorship because nothing good happens in the dark, and as 
we will learn today, there are some very dark places in China 
where torture is used regularly to punish and intimidate 
political and religious prisoners as well as their lawyers.
    We are also here to urge the U.S. Government to make ending 
torture a higher priority in bilateral relations and to urge 
the Chinese Government to fully enforce and implement its own 
laws. A country with China's global leadership aspirations 
should not engage in horrific practices so thoroughly condemned 
by the international community.
    As our witnesses will describe today in great detail, the 
use of torture is pervasive in China's detention centers and 
criminal justice system. Torture is used to extract confessions 
for prosecution and the coerced televised public confessions we 
have seen so often in the past year.
    Torture is also used to punish those political prisoners 
the Chinese security forces view as destabilizing forces. Under 
President Xi Jinping, there has been an expansion in the number 
of individuals and groups viewed as threats to national 
security.
    The victims of torture are very often human rights 
advocates and lawyers, union activists, members of non-state 
controlled Christian churches, Falun Gong practitioners, 
members of the ethnic minority groups like Tibetans as well as 
Uyghurs.
    Chinese officials repeatedly tell me I should focus more on 
the positive aspects of China's human rights and not on the 
negative. This is a difficult task when you read Gao Zhisheng's 
story or read the testimony of our witnesses, Golog Jigme and 
Yin Liping, who will present in just a moment.
    Nevertheless, I want to recognize that there have been 
changes made recently to China's Criminal Procedure Law that 
purport to prohibit the use of confessions obtained through 
torture and the requirement to videotape interrogations in 
major cases. According to Human Rights Watch, however, judges' 
videotaped interrogations are routinely manipulated, and police 
torture the suspects first and then tape the confession.
    As professor Margaret Lewis will testify today, 
``Preliminary indications are, however, that recording 
interrogations is not significantly changing the culture of 
extreme reliance on confessions as the primary form of evidence 
in criminal cases. When I viewed an interrogation room in a 
Beijing police station last October, the staff was keen to 
point out the video technology. What I could not help but 
notice was the slogan `Truthfully confess and your whole body 
will feel at ease.' They were looking down at this while they 
were sitting in the `tiger chair.' '' She says, ``Faced with 
this slogan during prolonged questioning makes crystal clear to 
the suspect that there is no right to silence in Chinese law.''
    Perhaps there may be Chinese officials who want to end the 
use of torture in detention facilities and curtail the force 
and influence of the public security bureau. Their efforts 
should be encouraged and, of course, supported. But as with 
many other things in China, particularly in the realm of human 
rights, with each step forward, or seemingly forward, there is 
often a step back and sometimes two.
    China's laws are too often either selectively implemented 
or completely ignored by security forces and the courts. 
Security forces, faced with the end of labor camps, created new 
forms of extralegal detention, such as ``black jails'' or 
residential surveillance in undisclosed locations where torture 
can continue without oversight or interruption.
    Until suspects have lawyers at interrogations, until all 
extralegal detention centers are abolished and police and 
public security forces are held accountable for abuse, China's 
existing laws will continue to be undermined by existing 
practice. The U.S. Government must find effective ways to 
address this issue urgently at the highest levels because 
hundreds of thousands of Chinese people are victims of 
shockingly cruel, illegal, and inhumane activities.
    Last week, the White House said that President Obama 
``reiterated America's unwavering support for upholding human 
rights and fundamental freedoms in China.'' President Obama has 
only a couple more meetings with Xi Jinping before his 
administration ends. He should make ending torture a priority.
    This issue touches on so many other human rights issues 
that are also critical ones for U.S. economic and security 
interests in China, like protecting the rights of political 
prisoners, the right of due process in the arrest of human 
rights lawyers, curtailing police powers, and the expansion of 
national security laws that target peaceful reform advocates, 
encouraging an independent judiciary, protections for the 
freedom of expression and freedom of religion, and encouraging 
the establishment of the rule of law in China.
    Torture will not end until the price of bad domestic policy 
is too high for Chinese leaders to ignore, or Chinese leaders 
understand that the use of torture harms their global 
interests. It already absolutely harms their standing in the 
world, and both the UN and the Special Rapporteur's Report, 
which, like the previous one, is a scathing indictment of the 
China's systematic use of torture.
    President Obama should not only hesitate to name names and 
shine a light on horrific practices that the Chinese Government 
says it wants to end. If nothing else, doing so would bolster 
the spirits of those prisoners of conscience who are rotting in 
Chinese jails.
    I will never forget when I first met Wei Jingsheng in 
Beijing in the early 1990s, when he was briefly let out of 
prison in order to get the 2000 Olympics, which they did not 
get, and they rearrested him and tortured him some more. He 
said, ``You Americans and the world do not understand that when 
you kowtow to the Chinese leadership, when you are afraid to 
look them in the eye and speak boldly about human rights, they 
beat us more in the prisons. But when you are predictable and 
strong, and you have a resolve that they know is real, they 
beat us less.'' It gets right down to the level of the jails.
    As a Washington Post editorial concluded last week, private 
discussions about human rights are important, but so is public 
messaging. Autocrats and dictators need to know unequivocally 
that the United States sees the freedom of expression, 
religion, rule of law, transparency, and an end to torture as 
critical interests necessary for better bilateral relations and 
to lengthen the expansion of mutual prosperity and integrated 
security.
    I would now like to call on our witnesses, and we will be 
joined shortly by members of the House and Senate. Two of our 
members are in an intelligence briefing, Marco Rubio, for 
example; but he is making his way over here and will leave that 
shortly. Again, I want to thank all of our witnesses for being 
here and, without objection, your full statements and any 
information and additional materials you would like to add to 
the record is made in order, and we will include them in the 
record of this proceeding.
    I would like to begin with Professor Margaret Lewis, 
professor of law at Seton Hall University, from my state. 
Welcome.
    Professor Lewis will discuss the Chinese Government's track 
record in implementing criminal procedure reforms to prevent 
torture and the continuing use of extralegal forms of detention 
despite the abolition of reeducation through labor in 2014.
    She will also talk about the unprecedented crackdown on 
human rights lawyers in July 2015 that led to the interrogation 
and harassment of hundreds of lawyers and their families, as 
well as the recent arrest of at least 11 of them on state 
subversion and inciting state subversion charges--nebulous 
charges at that.
    Additionally, she will share observations regarding forces 
or coerced confessions extracted through mistreatment of 
criminal suspects, including recent high-profile cases 
involving activists, lawyers, booksellers, and others.
    We will then hear from Golog Jigme, a Tibetan Buddhist 
monk, a human rights advocate, and a survivor of torture in 
Chinese detention centers, now living in exile in Switzerland. 
Mr. Jigme will discuss his personal experiences of torture at 
the hands of Chinese authorities during three periods of 
detention, 2008 to 2009 and 2012, as well as broader issues 
regarding the treatment of Tibetans in detention.
    We will then hear from Yin Liping, a Falun Gong 
practitioner and survivor of torture in reeducation through 
labor camps, now living in the United States after being 
accorded refugee status in December of 2015. Ms. Yin Liping 
will discuss her personal experiences of torture at the hands 
of Chinese authorities during three periods: 1999, 2002, and 
2004.
    Then, finally, no stranger to this Commission or to another 
committee I chair, the Human Rights subcommittee of the Foreign 
Affairs Committee, is Sophie Richardson--and we welcome her 
back--who is the China Director of Human Rights Watch. Dr. 
Richardson will address documented cases in pretrial detention 
and problems with access to lawyers and medical treatment that 
were featured in Human Rights' May 2015 report and others, and 
on the devices known as tiger chairs and many other aspects 
relating to that.
    She will also comment on the UN Committee against Torture, 
including her concluding observations, and the Chinese 
Government's participation in international human rights 
mechanisms. Dr. Richardson will provide policy recommendations 
to the Commission. All the others, of course, also are welcome 
to do so, as well as recommendations to the U.S. Government.
    Without objection, we are including written testimony by 
Geng He, wife of human rights lawyer, Gao Zhisheng--as I 
mentioned earlier--as someone who this Commission and I and 
many of my colleagues have followed and who has spoken out 
repeatedly on his behalf. We will put her testimony into the 
record.
    So, Professor Lewis, the floor is yours.
    [The prepared statement of Ms. Geng He appears in the 
appendix.]

 STATEMENT OF MARGARET K. LEWIS, PROFESSOR OF LAW, SETON HALL 
                    UNIVERSITY SCHOOL OF LAW

    Ms.  Lewis. Thank you, Mr. Chairman. I am privileged to be 
invited to participate in this hearing. I also need to say, 
having worked closely with your staff on the 2015 Annual 
Report, that I saw firsthand what an exceptional group of 
people you have supporting this Commission.
    In addition to these brief opening remarks, I have 
submitted a more detailed statement that is available outside.
    I want to begin by recognizing that China is undertaking a 
sizeable basket of reforms having to do with criminal justice. 
It is understandable that these reforms will take time to 
implement, both because of resource constraints and because of 
the entrenched practices of the police, the prosecutors, and 
the courts.
    These transitional challenges are fundamentally different, 
however, from the government's decision to selectively ignore 
legal protections embodied both in Chinese law and 
international legal norms. Here lies the key problem: The 
Chinese Government places perpetuating one-party rule above a 
robust commitment to the rule of law and human rights.
    For example, it is extremely rare for a court to use 
procedures in the Criminal Procedure Law for excluding 
illegally obtained evidence. Admittedly, courts should rarely 
have to exclude evidence if police and prosecutors are doing 
their jobs and not relying on illegally obtained evidence.
    That said, ongoing concerns about the courts' unwillingness 
and even inability to stand up to police, coupled with personal 
accounts of coerced confessions, stretch the bounds of 
credulity that the careful work of police and prosecutors is 
what is responsible for the rare invocation of these rules.
    The PRC Criminal Procedure Law also provides that no person 
shall be found guilty without being judged as such by a court. 
But the nearly 100-percent conviction rate in China underscores 
that the determination of guilt in practice occurs before a 
defendant enters a courtroom.
    Any movement toward establishing a presumption of innocence 
has been further undermined by the disturbing practice of 
televised confessions, effectively replacing formal court 
proceedings with public shaming.
    One of the more encouraging recent developments in criminal 
procedure reform has been the use of audio and video recordings 
of interrogation in serious cases. It is not yet of all cases.
    Preliminary indications are, however, that the recording of 
interrogations is not significantly changing this culture of 
relying on confessions as the primary, if not sole, form of 
evidence in criminal cases. As the Chairman noted, when I was 
fortunate to visit a police station in Beijing, I was excited 
to see that there was videotaping technology. The staff was 
very quick to point this out.
    What they did not point out--but what I could not help but 
notice was literally written in the floor right in front of the 
constraining metal interrogation chair--was the saying, ``If 
you confess, your whole body will feel at ease.'' This is what 
a suspect faces while they are undergoing prolonged 
interrogation by the police. There is no right to silence, 
currently, under Chinese law.
    The value of interrogation recordings is further limited if 
the defense has a difficult time accessing those recordings, or 
if there simply is no defense lawyer, which is the case in most 
cases today in China. Suspects need lawyers both to understand 
their rights and then to have someone actually advocate for 
those rights. Yet, the Chinese Government is taking an 
increasingly hostile stance toward defense lawyers. Defense 
lawyers risk reprisals by the government, rather than praise 
for their contributions to the rule of law.
    Turning to forms of detention outside of the formal 
criminal justice system, a variety of measures persist despite 
the end of reeducation through labor. While forms of so-called 
detention like compulsory drug treatment centers and custody 
and education centers have at least some basis in Chinese law, 
they do not satisfy international requirements for the legal 
review that must precede long-term deprivation of a person's 
liberty.
    The Chinese Government also takes actions without any legal 
basis to silence voices perceived as threatening to the 
existing political structure. The fact that extralegal measures 
like ``black jails'' are not officially recognized complicates 
efforts to estimate their prevalence.
    The Committee against Torture has stated that it ``remains 
seriously concerned at consistent reports from various sources 
about a continuing practice of illegal detention in 
unrecognized and unofficial detention places. . . .''
    This concerning state of affairs leads to the question, 
What are the implications for U.S. policy? I encourage U.S. 
policymakers to think of efforts to improve human rights in 
China on three levels: multilateral, bilateral, and unilateral.
    Multilaterally engaging China through international bodies 
like the UN Committee against Torture emphasizes that China is 
being judged by the yardstick of international human rights 
norms to which China has voluntarily subscribed, not by 
standards imposed on China by the United States or any other 
country.
    Bilaterally, the official U.S.-China Human Rights Dialogue 
and the slightly less official Legal Experts Dialogue are 
important forums, though I think we must keep our expectations 
very modest for the ability of these forums to actually spur 
legal reform right now in China.
    Non-governmental organizations and American universities 
further serve an important role in organizing meetings between 
Chinese and American experts. Conversations with Chinese 
participants at these meetings restore my faith that there are 
many reform-minded people both inside the government and 
outside the government who are working to further criminal 
justice reforms.
    Building interpersonal ties at these meetings is not an 
immediate deliverable, but instead this effort is going to lay 
the groundwork for long-term cooperation after the current 
political winds shift, whenever that may be.
    Finally, the increasing resistance by the Chinese 
Government to engage meaningfully in discussions of human 
rights sometimes requires taking a unilateral stance. I was in 
Beijing when the government announced the trial date for the 
renowned civil rights lawyer Pu Zhiqiang on charges of inciting 
ethnic hatred and picking quarrels and provoking trouble 
through comments on his microblogs.
    The U.S. Embassy's request that a representative be able to 
attend the trial was, not surprisingly, denied. Undeterred, a 
senior diplomat stood outside the courthouse and read a 
statement expressing concerns about Mr. Pu's treatment. 
Literally taking a stand on the courthouse steps reaffirms to 
ourselves that, despite our own country's transgressions 
sometimes of human rights norms, we remain committed to the 
fundamental dignity and rights of all human beings.
    When President Obama addressed the treatment of detainees 
in the aftermath of 9/11 at a 2014 press conference, he 
recognized that ``we tortured some folks.'' He continued that a 
detailed government report addressing instances of torture, 
``reminds us once again that the character of our country has 
to be measured in part not by what we do when things are easy, 
but what we do when things are hard.''
    While in China last December, several Chinese scholars and 
practitioners suggested that we stop focusing so much on what 
they term the exceptional cases when there have been marked 
reforms to the criminal justice system as a whole. I responded 
that the character of China's criminal justice system has to be 
measured not just by the handling of relatively easy, run-of-
the-mill cases like petty thefts or assaults but also by the 
blatantly politically motivated prosecutions, even if such 
cases represent a relatively small percentage of all criminal 
cases.
    The Chinese Government's failure to live up to the legal 
standards that it sets for itself in these hard cases 
undermines the legitimacy of the entire system.
    Thank you for the opportunity to provide a statement and I 
look forward to our discussion with the Commission.
    Chairman  Smith. Professor Lewis, thank you very much for 
your statement and thank you for complimenting the staff of 
this Commission, which are among the most knowledgeable and 
effective people.
    Our report, as you know, that comes out is so heavily 
footnoted--almost half of our footnotes are because the 
research is so in-depth. I compare that to what the Chinese 
Government just did in their release on alleged human rights 
abuse in the United States, which we welcome.
    As you point out, and I did a VOA talk show this morning. 
It was broadcast into China. Some of the call-ins were critical 
of the U.S. policies, and I said, criticize away. Criticism 
helps when it is benign; especially when it is well-meaning and 
constructive, it helps us to reform.
    Just to come back to the Human Rights Report issued by the 
U.S. Department of State, which was, again, a near-scathing 
indictment of many of the practices that China's government 
engages in. People are going to break laws, and you have got to 
have due process rights, defense attorneys.
    So I thank you for your input to our work on that important 
report.
    Now I would like to recognize Golog Jigme, and thank you 
for being here today.
    [The prepared statement of Ms. Lewis appears in the 
appendix.]

STATEMENT OF JIGME GYATSO, TIBETAN BUDDHIST MONK; HUMAN RIGHTS 
                    ADVOCATE; AND FILMMAKER

    Mr.  Jigme. First of all, I would like to offer my 
heartfelt gratitude to Congressman Smith, and to Members of the 
CECC, and those gathered here. My name is Golog Jigme. I 
consider myself a freedom fighter. I consider myself a social 
worker and filmmaker. As a result of our making the film 
``Leaving Fear Behind,'' we had some issues.
    My written statement has already been submitted to you. 
What I would like to describe now is a little more about the 
torture that I experienced during the three different 
detentions that I had to undergo.
    The real reason why we made the film ``Leaving Fear 
Behind'' is because overall Tibetans do not have human rights; 
Tibetans do not have democracy, including religious freedom, 
freedom of expression. Around 2007, the Chinese started 
propagandizing about how good the situation in Tibet was, how 
progress was being made in Tibet. That was all in connection 
with the upcoming Olympic Games. So we made that film to show 
the reality of Tibet to the world.
    That film conveys the true feelings of the Tibetan people 
about their situation. In 2008, as you know, there were 
widespread demonstrations all over Tibet. In my hometown--I was 
then in Labrang--there were demonstrations on March 14 and 15. 
I participated in those demonstrations.
    On March 23, I was detained for the first time. The nature 
of my detention then--I am just a simple monk--when they came 
to detain me, they came with 300 soldiers, 60 PSB [Public 
Security Bureau] personnel, and they had machine guns in front 
of me and behind me. They also brought electric cattle prods 
and other instruments of coercion.
    I had seen the machine guns as I was lifting my head up 
when I was taken away. I looked up and there was one up there 
in the front, and there was one behind down there. There were 
people with guns pointed at me. So from the very nature of my 
detention, it is clear how counterfactual the Chinese 
propaganda is about Tibetans being given equality, Tibetans 
having rights, or Tibetans having progress.
    I was taken to a room nearby where a security person was 
waiting. Then I was stripped naked and searched, and then my 
beatings began the whole night. Today, I want to give just a 
shortened version of the nature of the suffering that I 
underwent because if I explain in detail, it will take a long 
time.
    I was then taken to a place called Kachu (Chinese: Lingxia) 
in that same region. There I was kept for 1 month and 22 days 
during which I continued to experience torture.
    During this period, the main tool for torture that they 
used was what is called a ``tiger chair.'' I was shackled on a 
chair like this: Both my feet and my hands were shackled. I was 
kept hanging on that chair nine times.
    They had a strong light that was shone on me. As a result 
of all of this, my sensations failed, and although I knew that 
I was being beaten on my back with different instruments, I 
could not feel, except I could see the blood coming out of my 
body.
    During that period--in terms of food--if you got one small 
roll of bread a week, that was very good. In one week, if you 
got a little bit of water, that was also good. So if you think 
in terms of that, rather than feeling hungry, the feeling of 
thirst was worse for me.
    Among the many reasons why they tortured me was--first, 
that they wanted to know who the people that we interviewed 
were--for the film that we made. They wanted us to reveal their 
names.
    Second, they wanted me to reveal the names of those who 
participated in the demonstrations that I participated in on 
March 14 and 15, 2008, in Labrang Monastery.
    Today as I have this opportunity to address you here in the 
United States and as I have had the opportunity to address 
people in Europe, one thing that I am proud of is that despite 
all the torture that the Chinese inflicted upon me, I have not 
given up one name to them, whether it is those people involved 
with the film or with the demonstrations. So I can hold onto 
that as my principled stance even until my death.
    When I did not reveal any names to the authorities, they 
said, ``You do not seem to be giving us anything at all, so 
your mouth is useless. Therefore, we need to do something about 
your mouth.'' So they burned my mouth twice. That was very 
painful.
    In addition to the physical torture that I briefly 
described, they also inflicted mental torture on me. That 
included asking me to speak ill of His Holiness the Dalai Lama, 
asking me to criticize the Central Tibetan Administration, 
asking me to say that I am a member of the Tibetan Youth 
Congress, and asking me to reveal the names of the members of 
the Tibetan Youth Congress.
    Then they taunted me further, saying, ``There is no one who 
will save you. The United States will not save you.'' At that 
time, President Bush was the President of the United States. 
They taunted me by showing me a phone, and saying, ``Just call 
President Bush and see if he saves you. Just try calling the 
Dalai Lama to see if he saves you.''
    So it was like that. They said, ``You will die like a dog 
and nobody will care about you.''
    Physical torture, although it was bad, was something that I 
could endure. But the mental torture that was inflicted upon me 
was something that I could not endure. I was physically 
tortured during my first two detentions in 2008 and 2009. At 
one time, during my third detention in 2012, they even wanted 
to kill me. Upon learning that, I had to escape.
    So on September 30, 2012, I escaped, and for a year and 
several months I hid. Eventually, I was able to escape to 
India. In January 2015, I arrived in Switzerland, where I was 
given asylum. I want to end by saying that in 2007, on October 
17, when the U.S. Congress decided to bestow the Congressional 
Gold Medal on His Holiness the Dalai Lama, we the people in 
Tibet felt it. I was in Tibet then. We saw it. So it was very 
gratifying.
    Therefore, as I sit here today to talk to you about it, I 
also note that the United States cares about access to Tibet 
for people within Tibet, domestically, as well as for 
foreigners wanting to visit Tibet. Therefore in your 2015 
Annual Report, you mentioned the issue about domestic travel 
for Tibetans as well as access for journalists, diplomats, and 
others. I wholeheartedly support that.
    There are other recommendations that I have made that are 
in the written statement, so I will not talk about them now.
    Chairman  Smith. Mr. Jigme, thank you very much for your 
testimony and for such difficult insights as to what you have 
suffered. I deeply appreciate--the Commission does--your 
testifying today.
    Yin Liping, you are recognized for such time as you may 
consume.
    [The prepared statement of Mr. Jigme appears in the 
appendix.]

        STATEMENT OF YIN LIPING, FALUN GONG PRACTITIONER

    Ms.  Yin. I really appreciate the CECC Chairman, Mr. Smith, 
inviting me here. My name is Yin Liping, Falun Gong 
Practitioner from Liaoning province, China.
    I would also like to thank the Members of the U.S. Congress 
and the Members of the European Parliament for rescuing me and 
admitting me into the United States. I arrived in this free 
land on December 10, 2015.
    I was arrested seven times in China, tortured to the verge 
of death six times, and detained in labor camps three times, 
where I was made to do slave labor for nine months. I was 
sexually attacked and humiliated, and videotaped by a group of 
male prisoners while in police custody, all because I refused 
to give up my faith in Falun Gong. [Photo Display.]
    This is Masanjia Forced Labor Camp, notorious for 
persecuting Falun Gong practitioners.
    I was kept in Masanjia three times. In Mid-September 2000, 
Masanjia Director Su Jing addressed an assembly of hundreds of 
jailed Falun Gong practitioners: ``This is a war without guns. 
Our government has spent more money persecuting Falun Gong than 
fighting an international war.''
    They also mentioned that the ``transformation'' rate must 
be 100 percent. ``Transformation'' is a word they use for 
forcing Falun Gong practitioners to give up their belief. When 
I heard this word, I was so scared.
    On the fourth floor of that Masanjia building is a solitary 
confinement, a small area. I was jailed there. They kept 
broadcasting loud voices for so long that even now when I turn 
on a TV set, I am scared to turn it on.
    Also on the first floor of another building in Masanjia, in 
2004, I was kept in one of the rooms and I met an old lady, Ms. 
Qing from Fushun city. We talked to each other and promised 
each one that whoever survived this torture would come out and 
tell the world what we suffered. Unfortunately, I heard that 
the old lady, Ms. Qing, was already persecuted to death.
    I was sent to the clinic of Masanjia due to my hunger 
strike. I was cuffed to a bed and injected with unknown drugs 
for over two months. This caused me to temporarily lose my 
vision. I was also put through involuntary ultrasound, 
electrocardiogram, and blood tests at a nearby hospital.
    As a result, I developed endocrine disorders, incontinence, 
and had blood in my urine. In addition, their frequent violent 
force-feeding almost suffocated me.
    Since I had never been ``transformed'' by them, one day I 
was transported to a very special location--I did not know at 
the time what that place was.
    I will never forget the date, April 19, 2001. That morning, 
eight other female Falun Gong practitioners and I were 
handcuffed by male guards and taken to a police van. The van 
stopped at a men's labor camp. Later we learned it was Zhangshi 
Male Forced Labor Camp.
    Then we were lined up in the courtyard. A policeman read an 
official announcement to us: ``If a Falun Gong practitioner is 
beaten to death, the death will be counted as a suicide.'' We 
were told many times by policeman that this was a direct order 
from Jiang Zemin, then head of the Chinese Communist Party.
    We were taken to nine different rooms--because there were 
nine of us. I was sent to the first room. There was a large 
double bed and a floor hanger in the room. Four men were 
already in the room waiting. When I went to the public 
restroom, I saw there was a big room with more than 30 men 
sleeping there.
    I was so frightened and wondered what kind of place this 
was. Who were those men? Why were there so many men sleeping 
there?
    And then I got the answer that evening. Those men all got 
up, made a lot of noises, banged on doors, and kept on shouting 
dirty words. They kicked open my room door and held a 
camcorder, videotaping me.
    Then I heard my best friend, Ms. Zou Guirong's voice from 
the hallway shouting around 10 p.m. She kept calling my name, 
``Liping! Liping! We were sent from a wolf's den to a tiger's 
den. This government is a bunch of gangsters.''
    Hearing her miserable cries, I rushed into the hallway and 
met Ms. Zou there. We held each other tightly no matter how 
much the men beat us. One man used the wooden floor hanger in 
the room and hit my head. However, I desperately still wanted 
to protect her since she was shorter and thinner than me. The 
corner of my right eye was swollen from the beating.
    Then my clothes, at the time, were torn off. I was almost 
naked. Ms. Zou and I were dragged back to our individual rooms.
    Four or five male inmates threw me onto the bed. Some held 
my arms, some held my legs. One young man, around 30 years old, 
sat on me and beat me. I became dizzy and passed out. My memory 
stops there.
    When I became conscious, three men were lying beside me; 
one on my left, two on my right. There was one sitting on the 
floor above my head. There were two others standing between my 
legs; one videotaping, one was watching. There were a few 
others standing below me.
    I realized that I had been videotaped when I was sexually 
attacked and humiliated by gangs of inmates. I swore to myself, 
``If I ever get out of here alive, I will disclose their crimes 
and bring them to justice. If I die, my soul will never let 
them off the hook.''
    Chairman  Smith. Ms. Yin, if we could just take one brief 
moment. There is a--it will give you time to collect yourself 
as well. I thank you for your willingness to tell us, the 
Commission, and by extension other Members of Congress what you 
have been through.
    We do have five votes on the floor. We are almost out of 
time on the first. We will take a short recess. Other Members, 
I know, will be coming back. Again, I thank you for your 
courage in coming forward, but we will take a very brief 
recess. I thank you for your forbearance.
    [Whereupon at 3:23 p.m. the hearing was recessed.]

                        AFTER RECESS [3:31 p.m.]

    Chairman  Smith. We will reconvene. We are in the middle of 
votes, but we have a short--we are joined by Commissioner Trent 
Franks who is also Chairman of the Judiciary Subcommittee on 
the Constitution and also Chairman of the Religious Freedom 
Caucus in the House. It is a delight and a privilege to 
recognize my good friend and colleague, Commissioner Trent 
Franks.

  STATEMENT OF HON. TRENT FRANKS, A U.S. REPRESENTATIVE FROM 
                            ARIZONA

    Representative  Franks. Well, thank you, Mr. Chairman. I 
think probably most people in this room know that Chairman 
Smith is one of the great human rights advocates in the Unites 
States Congress for the past 30 years. He has the deepest 
respect on my part and I know many of yours.
    I guess the primary thing that I would say to all of you is 
that your efforts are not wasted here. Only God knows what 
fruits will come from your talk here, but you are being 
responsible and you are letting your compassion, your 
commitment to humanity prevails here in this forum.
    Torture is something that those who are perpetrators and 
those who are observers are completely shamed by it and the 
more that you are able to express it in open terms, the more 
that there are people out there that you will never see that 
will be spared that tragedy.
    I just want to express the deepest gratitude on my part to 
all of you and just the honor that I afford to all of you 
because of your commitment. I am convinced that one day if time 
turns every star in heaven to ashes, that the eternal moment of 
deliverance will come to every last one of God's little 
children. Until then, he has given us the responsibility to do 
the best we can to prevent hurt and tragedy in their lives, and 
I thank you for exhibiting that commitment today.
    With that, Mr. Chairman, I will yield back.
    Chairman  Smith. Thank you very much, Commissioner Franks. 
I would like to now recognize Ms. Yin to continue your 
testimony.

  STATEMENT OF YIN LIPING, FALUN GONG PRACTITIONER (Continued)

    Ms.  Yin. The following paragraphs are related to how I was 
force labored.
    In 2000, January through September, I was transferred to 
Liaoyang Forced Labor Camp for nine months. For those nine 
months, I had so much forced labor.
    In the daytime I had to load eight tons of steel bars onto 
trucks in a team of only four people. On those iron steel bars, 
there are a lot of thorns, sharp edges. I have always been cut 
on both of my arms, bloody and cannot recover--even though the 
old one has not recovered, the new cuts are coming up.
    Also, we need to bind flowers in the evenings until 2 a.m. 
Those flowers are used for exports. My hands were so badly 
injured because of what they needed to finish the quota--the 
flowers also are so very thorny, that my fingerprints 
disappeared and are also bloody.
    Because I still do not want to be ``transformed'', they 
don't allow me to sleep. My menstrual period stopped within 
three months over there. I also threw up blood. My hair turned 
gray. They do not allow us to meet our family members. Almost 
all of the products we made were exported to overseas.
    I have been suffering so much persecution, and I have 
written that down online. However, I want to spend a bit more 
time about this book. [Photo Display.]
    This book was authored by Mr. Du Bin. He was a former New 
York Times reporter. There is a sentence from him I just want 
to recite. ``To all of those who have suffered in China, the 
forced labor system, those who have been persecuted, punished, 
humiliated women--Chinese men like me, the only thing I can do 
is to send my very minor respect and sorrow.''
    Mr. Du Bin collected those survivors' testimonies of 
Masanjia Forced Labor Camp, all of their tortures, what they 
suffered from, those different torture methods, and 
particularly sexual abuses and crimes. Also, most of those are 
Falun Gong practitioners and other prisoners of conscience. 
[Photo Display.]
    This is my hometown's Falun Gong practitioner. Her name is 
Wang Ling. You may see she has no teeth in her mouth. Before I 
escaped from China, I met her. I asked her what happened to 
your teeth? She said while she was in Masanjia Labor Camp, the 
policeman put an inspection device for female parts into her 
mouth and expanded it to the extreme. While doing that, they 
pulled her teeth out one by one.
    In the meantime, the police put female sanitary napkins, 
dirty clothes, and even spit in her mouth. She also said, she 
was put into a place where she was stretched to the extreme and 
put into a cage. Then the policeman used three toothbrushes 
tied together and inserted into and stirred up her private 
part. That is what she told me.
    There are so many other torture methods that have not been 
exposed. The persecution is still going on, even while we are 
speaking now.
    Because of the time limit, I would like to talk a little 
bit about those lawyers who help Falun Gong practitioners in 
China.
    We all talk about Mr. Gao Zhisheng, lawyer, and he helped a 
lot of Falun Gong practitioners in China. Because Mr. Gao's 
story has been exposed to the world, and other lawyers in China 
have learned from Gao Zhisheng's stories, they want to come out 
to help more Falun Gong prisoners such as those who I just 
talked about: lawyer Wang Yu, lawyer Wang Quanzhang, lawyer 
Tang Jitian, and many other lawyers in China.
    Because of those lawyers, other human rights lawyers are 
willing to come out and help Falun Gong practitioners in China. 
Now a lot of Falun Gong practitioners need their help and they 
formed like a news information group. They communicate with 
each other.
    Because of those lawyers' help, the pressure from the 
Chinese Government on the Falun Gong practitioners is a little 
bit not so much. It's been helpful.
    Unfortunately, on July 9, 2015--I will never forget about 
this day--I learned that lawyer Wang Yu was arrested that 
morning. Then we quickly had this internet group set up to 
rescue him. Luckily, I was in that group.
    So a lot of other lawyers are trying to think about how to 
rescue lawyer Wang Yu. Unfortunately, in the evening, news from 
around all of China, in each city, large-scale arrests of 
lawyers happened.
    That evening I could not sleep. I was paying very close 
attention to what was going on. Actually on July 6, I already 
submitted my suing paper, document, to the legal system in 
China to sue Jiang Zemin.
    I thought because during that period a lot of Falun Gong 
practitioners are suing Jiang Zemin legally in China--then 
within a couple of days they have a large-scale arrests of 
those lawyers. So I didn't sleep for two nights. I really worry 
about Falun Gong practitioners, but not only Falun Gong 
practitioners, but also other persecuted groups in China.
    Chairman  Smith. Ms. Yin, I have got two minutes to get to 
the floor for a recorded vote. It is an important vote. I will 
be back right after that, but Senator Cotton and some other 
Senators, we believe, are on their way as well. So please hold 
that thought.
    We stand in brief recess.
    [Whereupon, at 4:07 p.m., the Commission was recessed.]

                        AFTER RECESS [4:15 p.m.]

    Chairman  Smith. We will reconvene. There are no further 
votes on the House side, so there will be no interruptions.
    We are joined by Randy Hultgren, Commissioner. Also you 
probably have seen him presiding as Chair before 10 o'clock. He 
will do it again tomorrow. He did an excellent job of managing 
the House.
    I would like to, again, go to Ms. Yin to conclude.
    Ms.  Yin. Because of the time limit, I will go back and 
focus more on myself a little. [Photo Display.]
    This is a photo of Wang Jie, also a Falun Gong 
practitioner. She was arrested on October 8, 2002. The reason 
she was arrested is because she was at the time collecting 
evidence of the persecution of Falun Gong, and she was 
sentenced to seven years in jail.
    After seven years and just when she was released, she was 
arrested again in September 2010. When she was released this 
time, within a year she passed away because of her bladder 
cancer due to the torture she suffered. I was just sitting next 
to her bed the last 10 days while she was in the hospital.
    On April 21, 2012, the day of her daughter's birthday, she 
was actually dying. Her sister kept calling her and saying, 
``Wang Jie! Wang Jie! Please don't die. Please don't die this 
day, it is your daughter's birthday. How can she live on if you 
die now? '' I do not know if it was Heaven's will or her will--
she died around 9 a.m. the next morning in my arms. The other 
lady, Ms. Zou Guirong, the three of us went through all those 
persecutions. We promised each other if any one of us can 
survive this persecution, we have to come out and tell the 
whole world our stories, expose those persecutions. Today, I 
bring both of them with me here to tell the people about what 
happened. [Photo Display.]
    This is another practitioner from Shenyang city [sobbing]. 
Her name is Gao Rongrong [sobbing]. She was killed because she 
was also a Falun Gong practitioner. She cannot tell her story 
anymore.
    I really appreciate the opportunity to be here to tell 
these stories. I took them all with me today.
    Chairman  Smith. Ms. Yin, thank you very much again for 
sharing this with the Commission.
    We are joined by Tim Walz. Thank you, Tim, for being here.
    We will go to Dr. Richardson for as much time as you would 
like to use.
    [The prepared statement of Ms. Yin appears in the 
appendix.]

 STATEMENT OF SOPHIE RICHARDSON, CHINA DIRECTOR, HUMAN RIGHTS 
                             WATCH

    Ms.  Richardson. Thanks. I think in the interest of 
welcoming your questions which I think everybody would like to 
answer, I am going to give you the Readers Digest condensed 
version.
    I do want to say, Chairman Smith, Members of the 
Commission, thank you so much for your devoted leadership on 
these issues over the years. We are also extremely grateful for 
your world-class staff who are excellent colleagues.
    I would like very much to associate HRW with Professor 
Lewis' remarks and to thank Golog Jigme and Yin Liping for 
their courage and for sharing their stories. I think the facts 
of the matter are established.
    There is only one aspect of this issue, of the issue of 
torture that we covered in our May 2015 report that we have not 
talked about this afternoon. I want to take a moment to 
underscore that to give you a little bit of math or metrics.
    In researching this report, we looked at a four-month slice 
of cases that were available through the Supreme People's 
Courts' database. We looked at 158,000 court verdicts looking 
for indications that suspects in criminal detention had alleged 
torture or ill-treatment in detention.
    We found from that universe only about 432 cases which we 
think is very much a function of the difficulty the criminal 
suspect face in detention centers, getting claims of ill-
treatment lodged with the authorities. Of those 432 cases, only 
23 resulted in the court throwing out evidence, but not a 
single one resulted in an acquittal.
    And we only found one prosecution involving three police 
officers responsible for torture. None of them served jail 
time, not a one.
    Quite simply, police torture and ill-treatment of suspects 
in pretrial detention remains a serious problem, largely 
because the measure is taken that were described by Professor 
Lewis are ignored in practice. They are great on paper. They 
are not serving suspects in reality.
    We had hoped in doing this research that many of the 
recommendations that we had made could be seized upon by the 
Chinese Government in advance of its November 2015 review under 
the Convention Against Torture, which is taking place about six 
months after this report came out.
    They could have worked to hold police accountable. They 
could have significantly reduced the amount of time a suspect 
can be held in police custody before seeing a judge. They could 
have moved to see that lawyers are present during police 
interrogations. They could have adopted legislation 
guaranteeing suspects rights to remain silent. They did none of 
those things.
    In our view, the United Nations Convention Against Torture 
Review of China was critically important, especially at a time 
when torture survivors, lawyers, and other activists took so 
much difficulty accessing any forms of redress inside the 
country.
    The list of issues which sketched out the Committee's 
concerns was unbelievably detailed and diverse. The actual 
interactive dialogue was quite extraordinary in that the 
Members of the Committee did not shy away from asking any of 
the difficult questions, not a one.
    Unfortunately, they were not given the benefit of proper 
replies. Requests for data went unanswered. Direct questions 
were responded to with misleading or patently untrue replies. 
Arguably, the rock bottom moment was when the Chinese 
delegation leader suggested that tiger chairs, which people 
have spoken about and is depicted in the photograph on the 
cover of this report, were in fact used for suspects' 
``comfort'' and ``safety''. We find that a little bit hard to 
believe.
    You could not ask for a better roadmap to mitigating or 
hopefully irradiating torture in China, than this document. The 
Committee is concluding observations.
    This is what China needs to do to fix the problem, whether 
you are talking about Tiananmen survivors or their family 
members, whether you are talking about North Koreans, Falun 
Gong practitioners, whether you are talking about criminal 
procedure reform, it is all there. It raises issues that are 
foundational.
    The very definition of torture--China signed onto this in 
1988. Its legal definition of torture still does not match what 
the Convention requires. It challenges procedural issues that 
they still have not replied to queries from their last review 
in 2008.
    It addressed a number of the very significant needs for 
reforms in areas that we have talked about this afternoon. 
Whether China takes those, of course, remains to be seen.
    Most of our recommendations were, of course, geared toward 
the Chinese Government because we always think that there are 
steps that the U.S. Government and Congress can take.
    I think the first area of focus ought to be whether the 
United States is using all, and I mean all interactions to 
press Chinese counterparts on mitigation of torture. By that I 
mean everything from the Minister of Public Security, Guo 
Shengkun's, meetings with National Security Advisor, Susan 
Rice. I mean working level interactions about China's hunt for 
fugitives or securing nuclear materials. I mean in training 
programs for Chinese police here in the United States, in the 
sensitive issue session of the--or in the run-up to the G-20 in 
Hangzhou in September.
    I think U.S. officials have to make clear and set 
benchmarks that significant progress towards mitigating torture 
is an essential precursor to more substantial bilateral law 
enforcement and other kinds of cooperation.
    Chairman  Smith. Would you yield on that? When you talk 
about law, has the President, has Susan Rice, and has the 
Secret Service, for example, leading up to the G-20 done that?
    Ms. Richardson. Fine question.
    Chairman  Smith. Oh, okay. We do not know.
    Ms. Richardson. It is a fine question. That and several 
other aspects of this debate are unclear to me. One of the 
recommendations I want to make is that it is harder, I think, 
than it ought to be to get clarity about the precise nature, 
particularly of law enforcement and any other kind of security 
force cooperation between the two.
    It is amazing how infrequently you hear the term, ``Leahy 
Vetting Invoked with China.'' I think there should be a review 
of what exactly this cooperation entails and what opportunities 
might be missed. So that is one area I think is important to 
look at.
    The other is really in supporting UN mechanisms. And again, 
I want to stress--we have talked a little bit about the ways in 
which Chinese activists or activists from the mainland have 
been restricted in accessing these kinds of reviews in Geneva. 
They have been harassed. They have been prevented from 
traveling.
    We all know the case of Cao Shunli who died for efforts 
trying to participate in the UPR. These mechanisms matter 
enormously for China. It is all people have these days. 
Obviously they cannot take their cases to court.
    So in this sense what I would like to ask you to do is to 
push China to issue invitations to the Special Rapporteurs on 
all of these issues: torture, lawyers, and forced 
disappearances.
    Speaking out as you have and we know you will continue to 
do, when accessed to mechanisms for independent activists the 
mainland has denied or restricted, we would ask that whenever 
you are speaking with the Chinese Ambassador to the United 
States or other officials, you ask why their government is 
unwilling to provide credible answers in these review 
processes. The more you reiterate those questions, the harder 
it is for them to avoid them.
    The third area there is a lot of room, I think, for 
improvement in is in providing support to survivors of torture 
in the mainland. One aspect we had not been aware of was just 
how few services there are available to people, whether it is 
physical rehabilitation or psychological counseling.
    The ironies of one of the best known cases, somebody who 
has been repeatedly tortured and essentially prosecuted for 
trying to get some redress for having been tortured was stopped 
on his way to Hong Kong which was the only place in the region 
where he could find a counselor who could work with him on 
PTSD. There are almost no services available to people.
    I think this ranges from adding the names of torture 
survivors like people who share their stories with us today, or 
people like Nian Bin whose case we have written about to your 
list of cases of concern. You can engage groups like the 
American Medical Association or the American Psychiatric 
Association or any USG-funded medical or psychiatric exchanges 
to see if there is room in their work to actually provide 
support to survivors.
    I am glad Mr. Walz is here because some of the U.S.'s best 
experts in this realm on assistance to torture survivors are in 
Minneapolis. They are in L.A. They are in New York. I think 
those are resources that we should tap. The United States could 
underwrite training specifically for people to provide these 
services.
    Then last, but not least, I think there is merit in easing 
the way to the United States or other countries for torture 
survivors so that they can at least get out and have their 
stories heard.
    I will just close by noting that I swapped emails last 
night with someone in the mainland who helped us with our 
research. She closed her message with the hope that someday 
such discussions would not only take place in Washington and 
Geneva, but also in Beijing.
    In the meantime, she, we, and I am sure many others thank 
you for having this hearing.
    [The prepared statement of Ms. Richardson appears in the 
appendix.]
    Chairman  Smith. Dr. Richardson, thank you so very much.
    On the torture victims, I actually authored the Torture 
Victims Relief Act four times. Then we have a pending bill that 
would reauthorize it.
    We need to ensure that people, the walking wounded if you 
will--one estimate puts it at a half a million people who are 
in America, usually people have been granted asylum--carry PTSD 
or some form of it. I would like to coordinate with you to see 
how we could further ensure that the suffering Chinese diaspora 
avail themselves of those services because again, a good 
psychiatrist, psychologist, a good program may not eliminate 
the nightmares and the pain, but it could mitigate it. That has 
been the story of the Torture Victims Center. So I thank you 
for brining that up.
    Let me ask--I will only ask one question then yield to my 
colleagues. Then I will have a few if time does permit.
    The first would be on the--maybe Professor you might want 
to take this or others. The whole idea of providing video and 
audio recording of interrogations and ``interviews'' is often 
gamed, is often a fraud as it unfolds.
    I will never forget--I have been in camps, prison camps in 
Russia, Indonesia, China, Northern Ireland and many other 
places. I will never forget being in Long Kesh in Northern 
Ireland when the British were showing me how--Long Kesh had a 
terrible reputation for beating people and coercing the 
coughing up of names and information and confessions.
    So they put in these cameras. While I was there on the 
Potemkin Village tour, talking to the police at the time, they 
said oh, here in the next room is the monitor and it is all 
being surveilled and watched.
    I said what is this button here? Oh, that's the off button. 
I said, well what happens in terms of the video if that is hit 
while someone is being beaten? Nothing.
    The person who actually does the auditing is his fellow 
officer. So there is no kind of--there is a potential conflict 
of interest that is huge. I am wondering in China where they 
get kudos in the international community for at least stalling 
some of this, when it comes to actual application, it seems to 
me it just invites fraud. I saw it myself at a Northern Ireland 
prison.
    Ms.  Lewis. So at least some of the video recording 
equipment is the kind now where if someone enters the room, it 
turns on. That is what was emphasized to me by legal experts.
    Of course, there is the problem of who is auditing the 
process. You can say the machinery is such that you enter the 
room, it turns on, but if the whole process is in the hands of 
the Procuratorate--the prosecutors--and the police, then how do 
we know that? This was raised in the report by the Committee 
Against Torture.
    Of course, too, it only works if you are in a location 
where the videotape is recording. So if you are at one of these 
residential surveillance at a designated place, not necessarily 
the person's home, if you are at a black jail, if you are at an 
extrajudicial site, wherever that might be, you are just not 
going to have any recording.
    So it is only as good as feeling confident that this is a 
true recording. Beyond that, if you do get a recording, you 
need to have a defense lawyer who could use this in court.
    Then the final link that is lacking is a judge who is 
willing to stand up to the prosecutor and the police and say, 
did you actually do this--what happened in this room? You do 
not see judges in a position right now that they will question 
the police.
    Police do not show up as witnesses. So that crucial final 
link to actually implement an exclusionary rule is lacking.
    Ms.  Richardson. If I could just add one quick point to 
that--in a way, it is actually worst. We had interviewees tell 
us that they were being held in formal detention centers with 
all of the proper proceedings and they were simply taken out of 
the detention centers and beaten up, and then brought back.
    You can equip the facilities until the cows come home, but 
if there is no accountability for the police for behaving that 
way, it is not going to matter much.
    Representative  Walz. Thank you, Chairman Smith. First of 
all, thank you all for being here and sharing painful stories.
    It is important. The one thing we always ask--and I 
returned in November from Tibet--is to ask people as they 
courageously approached us, does it hurt when we talk about 
these things? Does it hurt your cause? Does it make it worse? 
And they universally say no, continue to bring it to light. So 
I appreciate that.
    Dr. Richardson, I appreciate you pointing out the Center 
for Victims of Torture and their rehabilitation programs.
    I would just say--and it seems absurd to me that we would 
have to state this, but in today's world, we may. This nation 
rejects torture in all forms, no matter what any private 
individual may express. We have got to stand as strong as we 
ever have because listening to the stories here and this 
Commission and those Commissioners that sat on it I know share 
that, and make that case as strongly as we can because the 
moral authority we hold matters. The actions we take matters.
    I say that because I think it is important for people to 
know and probably more so for me to say that because I never 
would have imagined in my life I as a United States Congressman 
would be defending the United States' position that torture is 
unacceptable in all forms in any situation. So to clear that 
out.
    Maybe, Dr. Richardson or Professor Lewis, you could help me 
with this. I had an opportunity to have supper with the Chinese 
Ambassador here. What was interesting to me is it was the first 
time I ever witnessed this.
    We had a frank and candid conversation about Tibet in a way 
that was very ``un-Chinese'' if you will, not evasive, not let 
us change the subject, let us have that conversation. Is that 
misplaced optimism on my part to think that perhaps this 
conversation at higher levels is actually being taken seriously 
to understand that long-term rule of law is going to be 
dependent on getting this right? I know it is a subjective 
question, but your expertise would be appreciated.
    Ms. Richardson. Maybe I can take a stab at that and then 
there are plenty of other people on the panel who are 
qualified.
    I will get optimistic when we see that there are no more 
political prisoners in Tibet. I will be optimistic when people 
have the freedom of movement. I will be optimistic when people 
can challenge in court the way they have had their religious 
practices restricted.
    I am sure Ambassador Cui is plenty good at saying the right 
thing in the right moment.
    Representative  Walz. Which you believe he knows? How much 
do you believe he knows of what is happening?
    Ms. Richardson. Well, I think he probably knows a fair 
amount. I think he is equally knowledgeable.
    Representative  Walz. So the old fallback that it is a few 
bad apples----
    Ms. Richardson. What to say in the right moment.
    Representative  Walz. Right. That does not work. You do not 
buy that at all. It is a few bad officials at lower levels, and 
that happens everywhere type of attitude?
    Ms. Richardson. I think it logically follows that if you 
think you have got bad apples, you fire them, or you prosecute 
them, or you hold them accountable. You do not then turn----
    Representative  Walz. And there is no mechanism that really 
works to do that?
    Ms. Richardson. I am waiting to see it.
    Representative  Walz. Yes.
    Ms. Richardson. And look, the mechanisms exist; right? I 
mean China has a legal system. It is just not used.
    Representative  Walz. Because candidly to you nearly 30 
years of visiting and certainly subjective from my position, it 
felt worse to me than it ever has. It felt worse to me in the 
oppression both from Christians in Hong Kong to Uyghurs to 
Tibet. So that troubles me that it is heading in the wrong 
direction.
    Ms.  Lewis. It is a really tough time. I am an optimist, 
but a long-term optimist. I think that under the current 
leadership we are going to see very little good news when it 
comes to human rights. That is really unfortunate.
    But, I do not want that to be a reason for disengagement. 
As you said, it matters that our voice is out there. I really 
sincerely believe there are wonderful people inside the 
government whose heart is in the right place and outside the 
government, too.
    When I go over--not the official dialogues, but during the 
tea breaks, or over lunch--I see that they are concerned too 
about the future of their country and they believe in the rule 
of law. Right now they are concerned not just about themselves, 
but their families.
    This is not just about if I stick my neck out, I might lose 
my job, I might end up in prison. I have kids and I need to 
make sure that they are going to be okay.
    I understand why people are hesitant to speak out 
sometimes, but we need to cultivate those relationships and 
hope that not tomorrow, but longer-term, this will turn in the 
right direction.
    Representative  Walz. You know something that was 
interesting in this dialogue with high-level officials of the 
Premier Li was when I would speak about this a little bit on 
this trip with them in Beijing in November, they would always 
mention, they would say, oh, Congressman, I see you used to 
live on Pine Ridge. How did that work for you?
    I thought it was so interesting they were trying to make 
it, you have done it too. You have no moral authority.
    That is why I brought this up earlier and I think we have 
to guard against that because it was an argument I had never 
seen them make before, that you have done it and we are on the 
equal status, and yes, we have, too.
    Ms.  Lewis. I just want to add that when I go to China and 
they say, what about Guantanamo, or what about other 
transgressions? Then I point out that at Seton Hall we have a 
center at the law school that published the Guantanamo reports, 
a highly critical report of the U.S. Government using the 
Freedom of Information Act to get information.
    Everyone who worked on that report went home to their 
families. No one lost a job. No one went to prison, in fact, 
they were celebrated as bringing to light problems that our 
government needed to face. That is the fundamental difference 
between our two governments.
    Representative  Walz. Yes, absolutely. That is when we are 
our best. Anyone else on just general feelings of direction?
    Ms.  Yin. I would like to add something. Through the 
interpreter, I heard something that reminded me.
    From my point of view, those who claim this is a war 
without guns, against Falun Gong in China. I believe those who 
made me suffer so much pain should be punished.
    At the time, I asked those policemen who persecuted me, 
``Why are you doing this to me so cruelly? '' Some policemen 
said, ``I do not even want to do this, but this is from the 
very top of the CCP, Jiang Zemin, his order that--he wants to 
defame all of you and make all of your property disappear and 
also kill you--treat you as if you committed suicide, even 
though you were beaten to death.''
    Jiang Zemin was the top one in CCP who initiated this 
persecution. So there are so many people like myself, lost my 
home and happy family. A lot of students are expelled from 
schools, many arbitrarily detained and disappeared, and many, 
many other bad things happened.
    So I really wish that those who are responsible for this 
war without guns be punished. They have to take the 
responsibility of their wrongdoings and its outcome.
    Now I am holding a brief report listing the 42 perpetrators 
against me, which I want to submit to the CECC and Congress. I 
can still remember those who persecuted me, including Jiang 
Zemin, Bo Xilai, and Wang Lijun. Bo Xilai and Wang Lijun at the 
time were CCP leaders in Liaoning province in charge of the 
persecution.
    Another major perpetrator is Wen Shizheng [No. 2 
perpetrator in the report submitted]. He, at the time, was the 
Liaoning Provincial Communist Party Secretary. One time he 
assembled all the Falun Gong practitioners out in the field. A 
``transformed'' person said there was no ``torture'' at all in 
Masanjia. Ms. Zou Guirong immediately stood out of line and 
said that was a lie. Then right away several police ran over 
and started beating Zou Guirong. Wen Shizheng saw it right over 
there.
    Then on the same day, he changed the title of Masanjia 
Labor Camp to the Masanjia Mind Reeducation center. That label, 
that plaque at the gate has his own calligraphic signature. 
Those who persecuted us at the time in Masanjia are still 
working in Masanjia doing the same bad thing, persecuting Falun 
Gong practitioners now and all other people.
    Also in my testimony I talked about Ms. Su Jin [No. 29 
perpetrator in the report submitted]. She said in front of us 
that ``This war is a war without guns; the money spent on this 
persecution of Falun Gong is like an international war.''
    I would like to officially submit this listing report of 42 
perpetrators against me to the U.S. Congress. Hopefully, the 
U.S. Congress can help disclose and punish those people who are 
responsible for this persecution.
    Chairman  Smith. I thank you.
    Commissioner Hultgren?
    Representative  Hultgren. Thank you so much for being here. 
Thank you for telling your story. It is so important and I 
appreciate your courage and coming before us so that we can 
find ways that we can help. We are just very grateful for you 
doing it.
    I do have a couple of questions if I could. Ms. Yin, if I 
could address a question to you. We have heard stories and 
claims that China has abolished the reeducation through the RTL 
system back in 2014.
    I wonder, to your knowledge, is the facility at Masanjia 
still in operation today? Is it still used to detain Falun Gong 
practitioners and do you know if Falun Gong practitioners 
currently detained there suffer the same kind of torture and 
abuse that you did?
    Ms.  Yin. Yes, my husband's sister, or my sister-in-law--on 
April 10, 2014, she was sentenced to three years to Masanjia. 
About 15 days ago, March 28, 2016, Mr. Li--also a Falun Gong 
practitioner--at the time he was, as I mentioned earlier, also 
suing Jiang Zemin in China. Then he was arrested and sentenced 
to seven years in prison.
    Yes, as a matter of fact, I know many other practitioners 
are still being persecuted in mainland China. For their safety, 
I should not disclose their names.
    Representative  Hultgren. Dr. Richardson, if I could ask 
you a couple of questions.
    The UN panel of experts, noted in their concluding 
observations, that there were seven human rights defenders who 
were prevented from participating in the Convention Against 
Torture Review. I wonder if you would be able to provide an 
update on the status of those seven individuals and are they 
still unable to leave the country? Have they faced any further 
consequences of the CAT review?
    Ms. Richardson. That is a little bit of a difficult 
question to answer because not all of those people chose to 
identify themselves publically. I think it is a reasonable 
assumption that they have not been allowed to leave the 
country, especially if you sort of look at the general trends 
Ms. Lewis was alluding to earlier.
    This has been a terrible period for civil society and we 
have seen either people prevented from leaving or grabbed back 
from other places. We know that the two who did publically 
identify themselves have been harassed, partly in response to 
their interest in participating in the review. The other five, 
I think we can only make reasonable assumptions about for now.
    Representative  Hultgren. Dr. Richardson, also, the 
concluding observation noted that China told the Committee, 
``Government acts of intimidation and reprisals against 
citizens do not exist in China.'' Of course from your work at 
Human Rights Watch and just from our involvement, reading the 
paper, and other things, we just know that is absolutely false.
    Statements like this from the Chinese Government suggest 
that they are not participating in international human rights 
mechanisms in good faith. Would you agree with this, first of 
all? If so, why is China participating in this review process 
at all? What can be done--I think you talked about some of 
this, but just to reiterate, what can we do either the United 
States unilaterally or through our involvement in international 
institutions to make these mechanisms more meaningful and 
productive and hold their feet to the fire?
    Ms. Richardson. It is a huge question. I will try to answer 
it in 60 seconds or less.
    I mean, look, that statement on the delegation's part was 
just ludicrous. It did not pass the laugh test, not even close. 
We can document lots of cases to show that.
    Why do they participate at all? Because they can 
participate in bad faith and there are no really lousy 
consequences.
    This is the nature of the way the covenants are written and 
implemented. It is not that the UN is failing. I do not have 
enough positive things to say about how the Committee itself 
approached and carried out the review. It was exemplary. It is 
that there are not consequences for participating badly which 
is where other governments that care about human rights issues 
in China come in.
    It is to say to the Minister of Public Security, I am 
sorry, but we are not going to be able to host you for X and 
such meeting unless you have answered some of these key 
questions, or release some of these people from prison. There 
has to be a consequence attached to it.
    Representative  Hultgren. Has that happened at all, or no?
    Ms. Richardson. I think there is a tiny little bit of it. I 
think to the extent it happens, it is--look, if it is hard for 
me to see, and if it is hard for you to see, it is invisible to 
most of the people who desperately need to see it and who need 
to be seen to be treated that way; right? It has to be visible 
that there is some negative consequence for standing at the top 
of the torture apparatus and failing to follow your own laws.
    That is where I think a scrub of issues like law 
enforcement cooperation come in to be able to more precisely 
identify the people who should be responsible without ruling 
out precisely the kinds of people Professor Lewis has spoken 
about who are essential long-term to solving the problem. I 
think people behave differently when they know there is a 
rotten consequence coming at them for not changing their ways. 
Energy has to go into creating those disincentives.
    Representative  Hultgren. We, obviously, need to do a 
better job as a government here of being strong there. What 
other international allies or institutions do you think would 
maybe join with us because I think there is some power in 
numbers and maybe different avenues of attack there? Where 
would you recommend that we would have our best chance or best 
groups internationally to be working with, governments or 
institutions?
    Ms. Richardson. I'm going to answer that in two different 
ways. First of all, the United States gets a lot of credit for 
spearheading an unprecedented joint statement at the Human 
Rights Council in March. That had not happened since 2004, 
during the previous convention. Eleven other governments joined 
on. That is a practice that should be continued. It matters. It 
really registered in Beijing.
    There were also a couple of joint letters. So it is our 
view that more of these efforts that can be done jointly with 
other likeminded governments and with some unusual suspects are 
effective. It really gets Beijing's attention.
    The other way to think about it is to think about the kinds 
of engagements that Beijing cares about the most, the high 
profile, the glossy, the glitzy. Let us look at--there is 
supposed to be a real vigorous independent civil society 
component to the G-20.
    I am going to go out on a limb and suggest that that ain't 
going to be happening in China this summer in advance of 
September. I think what we will probably see is a very 
government-run, NGO-driven process to sort of check the box. 
But it is not going to be the kind of discussion that involves 
independent activists.
    I think there is real merit in dialing down the pomp and 
the glitz. I have to say the five hours I spent at the State 
dinner in September were trying. I have respect for people 
whose job it is to try to talk all day to Politburo members who 
really do not want to talk back, but that was an occasion that 
the Chinese cared enormously about.
    You know what? I do not think a whole lot of very important 
U.S.-China business necessarily got transacting that night. It 
could have been handled very differently in a way that would 
have hurt for the right reasons.
    Ms. Lewis. I would just add that I think when we raise 
these issues with China we need to come with specifics, with 
the facts. If we just speak in terms of rule of law is 
important, human rights are important, that not only is easy 
for China to come back with platitudes, but it also makes them 
think that we do not know what we are talking about.
    One point, when I was at the Legal Expert's Dialogue in 
October, I really commend the State Department for showing up 
with facts. They said, well, what about this person and what 
about this instance. Then it forces the Chinese to be more 
specific and also to recognize that we are doing our homework.
    If we are going to raise these issues, we need to raise 
them not just as abstract concepts, but bringing in the 
specific cases and the specific steps that need to happen in 
order to show progress.
    Representative  Hultgren. That is good. That is helpful. 
Thank you all so much.
    I yield back.
    Chairman  Smith. Thank you. Let me just conclude with a few 
final questions.
    Thank you again for your expertise and for coming forward 
and helping this Commission do a better job.
    Let me first begin with the idea of consequences. I have 
been a critic of this Administration, and I will continue to be 
so. I would love to praise it instead, but there have been 
numerous times where a strong rhetorical expression on the part 
of the President on down could have and would have made a 
difference.
    Certainly when Hu Jintao was here and was asked a pointed 
question about human rights in the press conference and the 
President defended the status quo by saying, well, they have a 
different culture and a different political system. The 
Washington Post very properly wrote a scathing editorial that 
said--the headline was President Obama Defends Hu, President Hu 
Jintao on Rights, because it gave him a pass. That is all they 
are looking for in my opinion. If they can get out unscathed or 
relatively unscathed, no harm done. They live to abuse and 
abuse another day.
    State dinners and the like ought to be predicated on real 
progress. Liu Xiaobo ought to be released immediately. It is 
unconscionable that a Noble Peace Prize winner remains 
incarcerated and--his wife all but incarcerated under house 
arrest and not doing very well--continues to serve out a jail 
sentence for asking for reform and doing it in a totally 
nonviolent way.
    Consequences--I have asked the Administration repeatedly to 
enforce the visa ban that I wrote in the year 2000 on the 
horrific forced-abortion and involuntary sterilization program 
that has led to disproportionality, males to females, the likes 
of which we have never seen. Girls targeted, the girl child, 
simply because she is a girl and is killed through sex-selected 
abortion has now exacerbated the trafficking issue. It is a 
gender crime with no parallels.
    Yet, there are no visas being denied, which is the law. 
Just enforce the law. I will ask again that the Administration 
do this.
    We had to ask Congressional Research Service to give us an 
accounting. You can count on two hands how many people have 
been denied visas, even though women have been so horrifically 
mistreated.
    On trafficking, I just chaired a hearing. I wrote the 
Trafficking Victims Protection Act, so I follow that issue 
every single day. China was one among 14 countries that got a 
passing grade, in other words, not Tier 3, egregious violator. 
It allows them to not be sanctioned for sex and labor 
trafficking which is exponentially increasing because of the 
missing girls and because of a great deal of buying and 
selling, turning women into commodities in China.
    They should have been Tier 3 and sanctioned. That would 
have sent a clear unmistakable message.
    On religious freedom, we have a tool sitting right there 
for all of these years. Frank Wolf wrote the International 
Religious Freedom Act in 1998. China has been a CPC country 
ever since.
    They torture religious believers. They torture Falun Gong 
practitioners. They are CPC. Where are the sanctions?
    His bill prescribed 18 specific mutually reinforcing 
sanctions that could be imposed on China. Some of them have 
real heavy serious consequences, economically as well as other 
ways.
    Where is the sanction regime? For half of President Obama's 
term in office he did not even designate CPCs and had no 
Ambassador-at-Large. Now we have a very fine Rabi who runs it, 
but there was no enforcement of religious freedom--another big 
issue.
    Xi Jinping--from my trip there with these two gentlemen in 
Shanghai, we know beyond any reasonable doubt that Xi Jinping 
is on a tear to do what he calls ``sinificcation'' of the 
churches, the practitioners, and everyone else who have a faith 
or who have any kind of religious expression to further tighten 
the screws on the free exercise of anything that even comes 
close.
    Next week the Foreign Affairs Committee will mark up the 
Magnitsky Act, make it global. It will probably pass the House 
with flying colors, be signed into law. We will have another 
tool that I fear will go unutilized vis-a-vis China to hold all 
of these people, the ones that Ms. Yin just described.
    The more in the weeds that we get in terms of people who 
commit torture, we can deny them visas now. Now we will have 
even a more moral imperative to do so and legislative 
sanctioning of that with the Magnitsky Act which has been 
applied, as we all know, to Russia. It will apply to the world. 
That is coming.
    We have not had the rhetoric in my opinion. Yes, we have 
had some good State Department lawyers who know their business, 
who raise these issues with their interlocutors, but when it 
gets to the higher levels, there is a great big void. It is 
time.
    At the UN, we do raise these issues. Again, as you pointed 
out Dr. Richardson, there is very little by way of enforcement.
    Before yielding to--Golog Jigme, when you talked about, 
earlier, the issue of cattle prods--on April 3, 1995, I 
convened a hearing of my Human Rights Subcommittee. We had six 
survisors of the Laogai: Catherine Ho, who had been abused 
while she was held by the Chinese; but we also had Paul 
D'Angiotso who when he came he literally brought the cattle 
prod that was used--one that he bought since--to demonstrate 
how it is used against prisoners, in this case Tibetan nuns and 
monks.
    He held it to different parts of his body and explained 
what the pain is like when this cattle prod is being applied to 
the genitals, under the arms, and in other sensitive areas.
    When he came into the Rayburn House Office Building, our 
police stopped him from coming in because he was carrying 
something that looked very nefarious, which it is. I had to go 
down and escort him in.
    You could have heard a pin drop as he talked about the 
torture that he had experienced personally, like you. I know 
that you wanted to elaborate on a question that was raised by 
Mr. Walz.
    This issue of torture is so heinous. Doesn't Xi Jinping 
realize the dishonor it brings to his government because these 
torturers are government employees and obviously owe their 
employment to his regime. It brings a loss of face and dishonor 
to the regime. You cannot tell me he does not know.
    Remember when that was used during the Third Reich, when 
people said, ``If only the Fuhrer knew.'' Well Xi Jinping, if 
he does not know, should know now, but I do believe he knows. 
He should take corrective action as should his government 
against these people who commit acts of perversion, sexual 
abuse, and rape against innocent people.
    So please, if you could respond and also perhaps answer one 
of the earlier questions that I believe you wanted to answer.
    Mr.  Jigme. Congressman, I agree with you that since China 
is an authoritarian state there is nothing that Xi Jinping does 
not really know, except maybe one or two things.
    In 2008, when I underwent these experiences, Hu Jintao was 
the leader and Zhou Yongkang was there among the nine members 
of the Politburo. Zhou Yongkang, who was holding the security 
position there, mentioned that too. All issues had to be 
completed in one month, which meant many things. Officers were 
given facilities like cars--free cars to undertake those 
actions.
    So at that time the official who was torturing me was a 
Chinese official named You Dengzhou. He was the head of a 
seven-member unit. He has now been promoted to being the head 
of a county.
    Therefore, with situations like this, there is nothing that 
all officials in China would not know. Therefore, it looks like 
people who commit such torture and who commit these crimes seem 
to get promoted from one level to another, from the prefecture 
level to the provincial, from provincial to--like this. So that 
indicates that officials at all levels know of these things.
    Just to give you a case in point, in 2008, among those who 
came to investigate me were some people sent directly from 
Beijing by the central government.
    Now there is discussion about whether we should trust the 
Chinese or have some hope in the Chinese. From what I have 
experienced, I do not have any basis for hope.
    For example, at the United Nations Committee against 
Torture session in November, which I attended, there was a 39-
member delegation from China and in their talk they mentioned 
that the ``tiger chair'' that Sophie mentioned earlier and I 
had mentioned earlier was not a torture instrument, but was 
meant for the safety and protection of the detainees. 
Protection because it will help prevent wounds on their 
backside.
    They also said there are no political prisoners in China. 
They said no lawyers are being detained. So all this was said 
in the face of the fact that I, who underwent torture was 
there; I was very much present in that room, and they were 
telling these lies. So that does not give me any hope.
    Even in the case if you are talking about political 
prisoners--the CECC itself has a list of around 640 names of 
Tibetan political prisoners. The Tibetan Center for Human 
Rights and Democracy in Dharamsala has more than 2,000 names. 
So all these names are of political prisoners and yet the 
Chinese have the audacity to say that there are no political 
prisoners.
    I am glad that Congressman Walz is here, and you mentioned 
about your trip to Tibet. In our interaction with people in 
Tibet, we knew that they knew about your trip to Tibet, and 
they were very much pleased that you were able to go with Nancy 
Pelosi. They said that if I got the opportunity, to please 
thank you all on their behalf.
    The Chinese will continue to hold onto their positions 
about development in Tibet and progress in Tibet, and so forth. 
I believe that it is important that we continue to engage with 
them and to try to understand the real situation in Tibet, 
whether it is going to Tibet or meeting people who will really 
be able to provide the real information about things relating 
to Tibet.
    I want to say this: While I was in Tibet, I was aware of 
this issue, and now that I am out, I am more aware of it. This 
is the issue about opening a U.S. Consulate in Lhasa. The 
Tibetan people have great expectation, great hope that 
something like this would happen because they know that if any 
country can do something about the Tibet issue, it's the United 
States.
    These are the words that I hear from the Tibetan 
intellectuals. These are words that I hear even from Tibetan 
nomads who may not know many things, but they will know that 
there are some American leaders who care about Tibet.
    The United States is a country that bestowed the 
Congressional Gold Medal on His Holiness the Dalai Lama. Its 
leaders have always cared about Tibet. Although I respect 
President Obama as an individual, when he went to China for the 
first time in 2009, I had expected that he would raise certain 
specific issues about Tibet, particularly about the Tibetan 
prisoner--by the name of Loyak; but unfortunately, nothing like 
that happened. That is sort of a disappointment that I continue 
to have about the President's trip.
    Very soon there will be a new President. I hope that 
whenever the new President goes on his or her maiden trip to 
China, there would be some benchmarks, some conditions that 
lead to such a visit. Otherwise, it might lead to 
disappointment for some people.
    I listened to the discussion about providing relief to 
survivors of torture. I also think that former political 
prisoners and current political prisoners also need such 
assistance. I would appreciate it if that could be considered, 
too. For example, I have a relative, Chokyi, who is in Tibet 
and who was detained on June 19. Although his physical 
condition is not good, he has not received any medical 
treatment in the hands of the Chinese.
    I want to reiterate one of the recommendations that is in 
my written statement. I care deeply about my colleague, Dhondup 
Wangchen; we made the film together. He is still in Tibet. His 
family--wife and children--are in the United States. His 
parents are in India. I would appreciate any steps that you can 
take to enable the family's reunification.
    I also want to raise the case of another Tibetan prisoner, 
Shokjang, who is a blogger and writer. He has been sentenced to 
three years, but he has denied all of the charges that 
authorities have leveled against him. He has, in fact, written 
a strong denial about all the charges. I would appreciate 
anything that you can do about his case.
    I would like to conclude by requesting Members of this 
Commission, as well as journalists and other independent 
individuals to consider visiting Tibet to understand the real 
situation of the people there. Thank you.
    Ms. Richardson. I am going to add a quick lever, a possible 
realm to your list. There is an organization called the Rhodium 
Group that put out a great report earlier this week about FDI 
[foreign direct investment] from the mainland and the United 
States.
    I want to be clear, investments are good, jobs are good. 
This is not an objection, but I think there are a lot of 
questions to be asked about--especially if that investment is 
coming from state-owned enterprises--who those enterprises are. 
If there are opportunities to press for improvements through 
those enterprises back onto the Chinese Government as a 
condition of their having access here in the United States.
    So I am just going to toss that out to you.
    Ms.  Yin. Through this meeting, I would like to also 
express my concern about another 160 Falun Gong practitioner 
refugees now in Thailand. As far as I know, their condition in 
Thailand is not very good--actually, in a lot of danger.
    Those practitioners in Thailand have already been told by 
the people who confine them that their cases cannot be moved 
forward because of pressure from the Chinese Government. Their 
interviews with the United Nations for refugee status cannot go 
through directly, but has to wait for at least three years in 
Thailand.
    Another problem is that the Thailand Government does not 
allow them to work in Thailand. So for the three-year waiting 
period, how are they going to survive?
    And then I heard recently that there were nine people, 
including some Falun Gong practitioners that could not stay in 
such poor conditions, so they tried to escape. They found a 
boat. Unfortunately, the boat was wrecked, and now they all 
have been arrested by the police in Thailand.
    As a matter of fact, just yesterday I called the wife of 
one of the persons who tried to escape. She told me that her 
husband is already now in the custody of Thailand police, but 
the Chinese Government has already sent somebody to get this 
gentlemen's passport.
    So during that time, the wife just sent me this statement 
about her husband's case in Thailand. She would also like to 
submit it to the CECC for help.
    On March 16, 2001, for unknown reasons, Masanjia bought a 
lot of sports goods that were hung on the wall. The entire 
building was cleaned and sanitized. All manual work products 
were moved to the storeroom downstairs. All persecution was 
stopped. A little after 8 a.m., Zhang Xiurong, a policewoman, 
took out a list of names. Those called out were divided into 
groups to be transported to watch a movie in turns. The movie's 
title was ``The Choice.'' Sixteen of the 32 people in our room, 
including me, were called up and taken to a large bus. This 
action was campwide; the same took place in other groups. Those 
on the bus were Falun Gong practitioners who were not 
``transformed.'' They were flanked by the Labor Camp personnel. 
There were three large buses taking these practitioners from 
Masanjia to a Youth Detention Center where we were herded into 
the canteen. It wasn't a movie theater. We were brought back to 
Masanjia in the evening. We learned later that we were taken 
away because a delegation of foreign media reporters was 
visiting the Camp that day.
    Thank you.
    Chairman  Smith. Thank you. I would like to thank all of 
our distinguished witnesses. I would like to thank our staff: 
Jen Salen, Andy Wong, Scott Flipse, Elyse Anderson, Judy 
Wright, Deidre Jackson, and Paul Protic who is the Chief of 
Staff for their work, not just for this hearing and our series 
of hearings that we have been holding, but for the work that 
they do every day on this vital information, trying to convey 
both to China, to other parts of our government, including the 
Executive Branch and, of course, for working so diligently on 
the Human Rights Report, the annual report that lays bare the 
record, the good, the bad, and the ugly, and sadly so much of 
it has been ugly of late. I want to thank them for that as 
well. [Applause.]
    Let me also just conclude by again reminding everybody that 
the Chinese Government told the Committee, the Convention 
against Torture as Randy Hultgren said so well, ``Government 
acts of intimidation and reprisals do not exist in China.'' 
That is a big lie and it needs to be so denounced as that.
    Then to say, as it was pointed out in our testimony, that 
tiger chairs are utilized for the safety and comfort of women 
and men who are being interrogated and tortured is absolutely 
absurd.
    The hearing is adjourned.
    [Whereupon the hearing was concluded at 5:29 p.m.]

                            A P P E N D I X

=======================================================================

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

              Prepared Statement of Venerable Golog Jigme

                             april 14,2016
    I would like to first thank the CECC, particularly Chainnan Smith 
and Co-Chainnan Rubio, for holding this important hearing today, and 
for inviting me to participate. As a survivor of torture inflicted by 
Chinese public security officers, and now as a human rights advocate 
living in exile in Switzerland, I believe that it is essential for the 
U.S. and other governments, as well as the UN and other entities, to 
understand what actually happens inside Chinese detention facilities 
from someone who has experienced it, and to understand the human rights 
situation in Tibet today. Not only behind bars, but beyond the prison 
walls, my Tibetan brothers and sisters are suffering. I urge the CECC 
and the U.S. Congress to continue to pay attention to the situation 
inside Tibet. For the future of Tibet, it is very important to break 
the ``lockdown'' that the Chinese government has imposed around the 
Tibetan people. As human beings, we Tibetans have the right to 
peacefully express our views without fear of being arrested or 
tortured. We have the right to freedom of movement and to freedom of 
religion, and China should be held accountable for denying us these 
basic freedoms, and subjecting us to arbitrary detention and torture 
when we try to exercise these basic human rights. It is my profound 
hope that the CECC and Congress will continue to pay attention to the 
suffering of Tibetans.
                                 * * *
                          my story (in brief)
    My name is Golog Jigme, and I am also known as Jigme Gyatso. I was 
born into a Tibetan nomadic family in eastern Tibet, and when I was a 
teenager joined the Labrang Monastery in Kanlho, Amdo (Gansu province). 
I was involved in various social causes while at Labrang, including 
teaching children about Tibetan culture and promoting the Tibetan 
language, and [ was engaged in social welfare work, such as relief 
efforts following the Yushu earthquake in 2010.
    In 2008, I worked with the filmmaker Dhondup Wangchen to interview 
a wide range of Tibetans--including nomads, elders, monks and people in 
remote areas--about their thoughts and feelings before the Beijing 
Olympics, which became the documentary film ``Leaving Fear Behind.'' We 
wanted the world outside Tibet to understand the reality of what was 
happening in Tibet; and for people to hear the voices of Tibetans 
themselves, discussing their feelings and experiences.
    As a result of this work, Dhondup Wangchen was imprisoned for six 
years. I was detained three times during the period from 2008 to 2012. 
While in Chinese custody for seven months in 2008, I was severely 
tortured. Chinese officials accused me of shooting the film ``Leaving 
Fear Behind'' and of being a member of the Tibetan Youth Congress, and 
they also accused me of not denouncing His Holiness the Dalai Lama.
    In April 2009, I was detained again, and accused of disclosing 
State secrets. I was held for several months, and was subjected to 
severe beatings, but not tortured brutally like during my first 
detention in 2008.
    In September 2012, I was detained yet again but managed to escape 
from the detention facility. Chinese security officers had accused me 
of being the main instigator of the self-immolations protest across 
Tibet, among other baseless allegations. After my escape from 
detention, I went into hiding for more than a year and a half before I 
escaped to India, in May 2014. I arrived in Switzerland in January 
2015, where I have been granted political asylum.
    I was never formally arrested. I was given two separate detention 
warrants (juliuzheng), but only after I had been released. During my 
three detentions, I was never given any document setting forth formal 
charges against me. I was never given a trial. Neither my monastery nor 
my family was informed of my whereabouts; I was held incommunicado. I 
had no access to a lawyer. I never received any medical treatment.
                                 * * *
    Here I will describe in brief the torture I suffered at the hands 
of Chinese security officers. If I were to describe everything, it 
would take a very long time, so I will summarize. At the outset, I 
would like to emphasize that I am walking proof of Chinese government 
torture. Today, I still have severe back pain, scars on my wrists and 
ankles, and other injuries from the torture that still cause pain in my 
knees, ribs, and eyes. The first incarceration, in 2008, was the most 
difficult for me because I was brutally tortured. For one month and 22 
days I was tortured continuously. I was forced to sit in the ``tiger 
chair'' (also known as the ``iron chair'') day and night. This was the 
worst fonn of torture I experienced during my three detentions. My arms 
were handcuffed in front of me on a small metal table, and my legs were 
bent beneath the seat and strapped to the chair with iron cuffs. My 
joints suffered horribly and at one point my feet became so swollen 
that all my toenails fell off. I still have scars on my wrists and 
ankles from when I was turned backwards in the chair and suspended from 
the ceiling, for hours at a time. I was deprived of sleep and given 
very little to eat. The pain of thirst was the second worst torture; I 
was given only a very small amount of water, and felt unbearably 
thirsty because of blood loss from my body. During the first and second 
detentions, I was subjected to severe beatings and kicking; some of my 
ribs were broken and my knee joints were dislocated.
    During the third detention in 2012, Chinese security officers told 
me I would be transferred to Lanzhou City Military Hospital for a 
medical exam to see if I had any diseases, and that if they I was 
fortunate that I was able to escape before they moved me to the 
hospital. While I was in hiding, I learned that the Chinese government 
had issued a warrant for my arrest accusing me of murder, and offered a 
large sum of money to anyone who could provide information about my 
whereabouts. I am deeply grateful to the people who risked so much in 
order to arrange things and help me get out of the country. My safe 
escape was a collective effort, and the people who gave so much are an 
ongoing source of inspiration for me.
 un committee against torture's review of china's compliance with the 
               convention against torture (november 2015)
    As a survivor of torture at the hands of Chinese security 
officials, I was grateful to have been able to attend the UN Committee 
against Torture's review of China in Geneva this past November. But I 
was shocked that the Chinese government told such lies at the UN. I was 
glad to be able to tell the Committee my story--the true story of 
China's torture record. I was very happy to see the Committee ask tough 
questions of the Chinese delegation. Moreover, I felt the strength and 
commitment of the Committee to stand by the truth. It was heartening to 
watch the Committee hold the Chinese government accountable for 
torture, arbitrary detention and otherhuman rights abuses in Tibet and 
China.
    It is absurd for Chinese officials to say that torture doesn't 
exist in China. I was detained three times and tortured numerous times 
by Chinese authorities. I was beaten with wooden batons and electronic 
devices and had my face, eyes and lips burned when I was tied to a hot 
stove. I was shackled with my hands behind my back and hung from a pipe 
on the ceiling and I was also physically assaulted by a group of five 
Chinese officials who trampled all over my body.
    Unbelievably, when asked by the Committee about the "tiger chair" 
used during police interrogations, a Chinese government official said 
the chair was for the protection and safety of the detainees. I spent 
days and nights in such a chair; it was horrific torture.
    The Chinese delegation also claimed that there were no political 
prisoners in China. This is absurd. The CECC Political Prisoner 
Database has over 640 records of Tibetan political prisoners; some NGOs 
have a much higher number. Regardless, it is laughable for the Chinese 
government to say that political prisoners do not exist in Tibet and 
China. Not only were Dhondup Wangchen and I political prisoners, but 
Shokjang, a popular blogger and my good friend, was recently sentenced 
to three years in prison for ``inciting splittism''--based on nothing 
other than the peaceful expression of his own views on ethnic policy 
and other issues of concern to Tibetans. We are just a few examples of 
many other political prisoners who have come before us, and of those 
who are currently serving time in prison or detention facilities, or 
who have been disappeared, for simply exercising their basic human 
rights of freedom of expression, religion, movement, among other 
rights.
    In conclusion, I would like to thank the U.S. and the international 
community for the attention given to my case during my detentions in 
Tibet. The support and pressure of governments, outside media, the UN 
and human rights groups do make a difference to those imprisoned or 
otherwise detained in Tibet.
                            recommendations
    <bullet> I urge the U.S. Congress and the Administration to 
challenge China's oppressive policies in Tibet and to continue to pay 
attention to the suffering of the Tibetan people.
    <bullet> The U.S. government should press China to invite the UN 
Special Rapporteur on Torture for a follow-up visit to the last one 
conducted by the Special Rapporteur on Torture, which was over 10 years 
ago. Unimpeded access to prisons and prisoners in Tibet should be part 
of the terms of the visit.
    <bullet> I urge the U.S. government to continue raising the case of 
Dhondup Wangchen with Chinese officials, and ask that he be allowed to 
travel internationally in order to be able to reunite with his wife and 
three children, who now live in the U.S.
    <bullet> Urge China to release all Tibetans who have been detained 
or imprisoned for peaceful, nonviolent views and opinions such as 
Shokjang, the young Tibetan blogger sentenced to three years in prison 
in February 2016.
    <bullet> I fully support the CECC's recommendation to Congress and 
the Administration to press China to respect the right of freedom of 
movement of Tibetans domestically, and to allow greater access to 
foreign diplomats, journalists, NGOs and others to the Tibet Autonomous 
Region (TAR) and Tibetan autonomous areas, as well as the other 
recommendations on Tibet contained in the CECC's 2015 Annual Report.
                                 ______
                                 
                                 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                                                  
Prepared Statement of Hon. Christopher H. Smith, a U.S. Representative 
 From New Jersey; Chairman, Congressional-Executive Commission on China

                Ending Torture in China: Why It Matters

                             april 14, 2016
    Gao Zhisheng's account of the torture he experienced is shocking, 
offensive, and inhumane. From the time he was first arrested in 2006 
until his provisional release in 2014, Gao was regularly hooded and 
beaten, shocked with electric batons, had toothpicks inserted in his 
genitals, was sleep deprived and malnourished, and his life was 
threatened repeatedly by guards and fellow prisoners. Gao was tortured 
because he dared to represent persecuted Christians and Falun Gong and 
because he was critical of China's legal system.
    Gao wanted what was best for China, but he got the worst.
    Gao's wife, Geng He, submitted testimony to this hearing and I urge 
you to all read it. It is for Gao Zhisheng, and the many other victims 
of torture, that we hold this hearing today.
    We are here today to shine a light on the brutal, illegal, and 
dehumanizing use of torture in China. We shine a light on a 
dictatorship because nothing good happens in the dark. And, as we will 
learn today, there are some very dark places in China were torture is 
used regularly to punish and intimidate political and religious 
prisoners and their lawyers.
    We are also here to urge the U.S. government to make ending torture 
a higher priority in bilateral relations and to urge the Chinese 
government to fully enforce and implement its own laws. A country with 
China's global leadership aspirations should not engage in horrific 
practices so thoroughly condemned by the international community.
    As our witnesses will describe today in great detail, the use of 
torture is pervasive in China's detention facilities and criminal 
justice system.
    Torture is used to extract confession for prosecution and to coerce 
the televised ``public confessions'' we have seen too often in the past 
year.
    Torture is also used to punish those political prisoners the 
Chinese security forces view as destabilizing forces. Under Xi Jinping, 
there has been an expansion in the number of individuals and groups 
viewed as threats to national security.
    The victims of torture are very often human rights advocates and 
lawyers, union activists, members of non-state-controlled Christian 
churches, Falun Gong practitioners, and members of ethnic minority 
groups, like the Tibetans and Uyghurs.
    Chinese officials repeatedly tell me I should focus more on the 
positive aspects of China's human rights and not on the negative. That 
is a difficult task when you read Gao Zhisheng's story or read the 
testimony of our witnesses Golog Jigme and Yin Liping.
    Nevertheless, I want to recognize the changes made recently to 
China's Criminal Procedure Law that prohibits the use of confessions 
obtained through torture and the requirement to videotape 
interrogations in major cases.
    According to Human Rights Watch, judges' videotaped interrogations 
are routinely manipulated--and police torture the suspects first and 
then tape the confession.
    And as Professor Margaret Lewis will testify today, ``Preliminary 
indications are that recording interrogations is not significantly 
changing the culture of extreme reliance on confessions as the primary 
form of evidence in criminal cases. When I viewed an interrogation room 
in a Beijing police station last October, the staff was keen to point 
out the videotaping technology. What I could not help but notice was 
the slogan ``truthfully confess and your whole body will feel at ease'' 
that was written in large characters on the floor in front of the 
metal, constraining interrogation chair, otherwise known as a ``tiger 
chair.'' Faced with this slogan during prolonged questioning makes it 
crystal clear to the suspects that there is no right to silence in 
Chinese law.
    Perhaps there may be Chinese officials who want to end the use of 
torture in detention facilities and curtail the force and influence of 
the Public Security Bureau, their efforts should be encouraged and 
supported, but as with so many other things in China--with each step 
forward there is another step or two back.
    China's laws are too often either selectively implemented or 
completely ignored by security forces and the courts.
    Security forces, faced with the end of labor camps, created new 
forms of extra-legal detention--such as ``black jails'' or 
``residential surveillance in an undisclosed location''--where torture 
can continue without oversight or interruption.
    Until suspects have lawyers at interrogations, until all extra-
legal detention centers are abolished, and police and public security 
forces are held accountable for abuse, China's existing laws will 
continued to be undermined by existing practice.
    The U.S. government must find effective ways to address this issue 
urgently and at the highest levels, because hundreds of thousands of 
China's people are victims of shockingly cruel, illegal, and inhumane 
activities.
    Last week, the White House said that President Obama ``re-iterated 
America's unwavering support for upholding human rights and fundamental 
freedoms in China.''
    President Obama has only a couple more meetings with President Xi 
before his Administration ends. He should make ending torture a 
priority. This issue touches on so many other human rights issues that 
are also critical ones for U.S. economic and security interests in 
China such as: Protecting the rights of political prisoners; advancing 
the right to due process; addressing the arrests, disbarments, and 
disappearances of human rights lawyers; curtailing police powers and 
the expansion of national security laws that target peaceful reform 
advocates; encouraging an independent judiciary; protecting the freedom 
of expression and religious freedom; and encouraging establishment of 
the rule of law in China.
    Torture will not end until the price of bad domestic publicity is 
too high for China's leaders to ignore or when finally China's leaders 
understand that the use of torture harms their global interests. On 
this last point, only the United States has the ability to deliver such 
a blunt message to China.
    President Obama should not hesitate to name names and shine a light 
on horrific practices that the Chinese government says it wants to end.
    If nothing else, doing so would bolster the spirits of those 
prisoners of conscience who are rotting in Chinese jails. We know their 
jailers tell them repeatedly that the world has forgotten them.
    As a Washington Post editorial concluded last week, private 
discussions about human rights are important, but so is public 
messaging. Autocrats and dictators need to know unequivocally that the 
United States sees the freedom of expression, the freedom of religion, 
the rule of law, transparency and an end to torture as critical 
interests, necessary for better bilateral relations, and linked to the 
expansion of mutual prosperity and integrated security.
                                 ______
                                 

 Prepared Statement of Hon. Marco Rubio, a U.S. Senator From Florida; 
        Cochairman, Congressional-Executive Commission on China

                             april 14, 2016
    Despite government pledges to reform, torture remains a systemic 
problem in the Chinese criminal justice system. These abuses are well 
documented and they demand our attention.
    The State Department's 2015 Annual Human Rights Report, released 
just yesterday, found that in China, ``Numerous former prisoners and 
detainees reported they were beaten, subjected to electric shock, 
forced to sit on stools for hours on end, deprived of sleep, and 
otherwise subjected to physical and psychological abuse. Although 
ordinary prisoners were abused, prison authorities reportedly singled 
out political and religious dissidents for particularly harsh 
treatment. In some instances close relatives of dissidents also were 
singled out for abuse.''
    As the Department's Report makes clear, the victims of this 
horrific treatment are as diverse as the Chinese government's means of 
denying them justice.
    In May 2015, the non-governmental organization (NGO) Human Rights 
Watch issued a sobering report titled ``Tiger Chairs and Cell Bosses'' 
which explored police torture of criminal suspects in China. The report 
found that interrogation, or ``tiger,'' chairs are routinely used to 
restrain detainees. Several of those interviewed indicated that they 
were strapped into these metal chairs for hours and in some cases days 
at a time. They also reported physical and psychological torture during 
police interrogations, including being hung by the wrists, being beaten 
with police batons or other objects, and deprived of sleep for 
prolonged periods of time. One convicted prisoner awaiting review of 
his death sentence had been handcuffed and shackled for eight years.
    While the Human Rights Watch report focused on the deplorable 
treatment of ordinary criminal suspects, torture is often employed in 
cases involving political prisoners as the State Department noted.
    Today's hearing Record will include a letter from Geng He, the wife 
of noted rights lawyer and political prisoner Gao Zhisheng who has 
suffered unimaginable abuse at the hands of the Chinese authorities. 
Geng He fled China with their two children in 2009 just one month 
before Gao was again kidnapped and disappeared. She writes movingly of 
the sacrifices her husband has made saying, ``Even though he lost his 
own freedom and suffered unspeakable torture, he never lost his belief 
in freedom and human rights.''
    Unfortunately, disappearances of the sort Gao experienced are all 
too commonplace. Extralegal detention facilities such as ``black 
jails'' are routinely used as is ``residential surveillance at a 
designated location'' whereby people are held for up to six months for 
undefined crimes of endangering state security. This was true for 
several of the human rights lawyers and activists rounded up last July 
during a nationwide sweep, some of whom have been held incommunicado 
for nearly nine months making them especially vulnerable to 
mistreatment or even torture.
    In March, the NGO China Human Rights Defenders (CHRD) reported that 
a significant number of the detained lawyers and advocates have 
apparently ``dismissed'' their lawyers or allegedly ``hired'' other 
lawyers to represent them. But when family members and family-
authorized lawyers have requested to meet the detainees to confirm such 
``decisions,'' police have rejected the requests outright raising 
alarms about coercion. CHRD further reported that ``Most of the 
individuals who have allegedly `fired' their lawyers have been arrested 
for `subversion,' a political crime for which a conviction carries a 
minimum of three years, and up to life imprisonment.'' They also noted 
that police-appointed lawyers are not likely to challenge ``evidence'' 
obtained through torture or coercion.
    The phenomenon of televised confessions has also been on the rise 
with most legal experts inferring that such ``confessions'' are 
obtained through force or coercion of suspects. The Chinese government 
has for years acknowledged the problem of wrongful convictions, 
including the use of torture to extract confessions, as documented in 
the Congressional-Executive Commission on China's (CECC) 2015 Annual 
Report.
    The overreliance on confessions in the criminal justice system 
perpetuates this practice. Notably the airing of confessions on state 
television, in violation of Chinese law, has become more common since 
President Xi Jinping's ascent to power.
    Several such confessions-- including that of Christian rights 
lawyer Zhang Kai, Hong Kong bookseller Gui Minhai, veteran dissident 
and journalist Gao Yu and Swedish national and NGO worker Peter 
Dahlin--have rightly garnered international attention.
    As with so many other areas the CECC monitors, there is little 
evidence of progress and in many cases continued erosion when it comes 
to mistreatment in China's criminal justice system. China will never be 
viewed as a responsible global stakeholder as long as it persists in 
subjecting its own people to torture and denying them basic human 
rights and legal protections.

                       Submissions for the Record

                              ----------                              


Written Testimony Submitted by Ms. Geng He, Wife of Lawyer Gao Zhisheng

                             april 14, 2016
    Respected Ladies and Gentlemen:
    My husband Gao Zhisheng is one of China's top ten lawyers, but 
starting in 2005, he became a target of the Chinese government's 
persecution and torture for his legal defense work on behalf of 
persecuted Christians and Falun Gong practitioners. In November 2005, 
the government revoked his lawyer's license and forcibly closed down 
his law firm. On August 15, 2006, the police unexpectedly kidnapped 
him, and by holding our children and me hostage, they forced my husband 
to admit he was ``guilty.'' After Gao had been ``disappeared'' for four 
months, on December 22, 2006, the police found him guilty of ``inciting 
subversion of state power,'' and sentenced him to serve three years in 
prison, a sentence that was suspended for five years, with deprivation 
of his political rights for one year. He came home, but was now reputed 
to be a convicted criminal. However, while serving a suspended sentence 
at home, the Chinese Communist Party's police kidnapped Gao Zhisheng 
more than six times, with one of those disappearances lasting for 21 
months. He suffered many forms of torture during each disappearance.
    He first experienced torture on September 21, 2007. Gao Zhisheng 
had sent an open letter to the U.S. Congress that exposed the Chinese 
Communist Party's trampling of human rights, and, in retribution, the 
Chinese Communist police placed a black hood over Gao's head and took 
him away for 50 days. The day he was kidnapped was September 21, during 
which Gao Zhisheng experienced terrifying torture and suffering at the 
hands of the police. On that day, six or seven policemen placed a black 
hood over his head, brought him into a room, and stripped him naked. 
After beating him, four of the policemen each took an electric baton in 
hand and struck him all over his body, including his genitals, causing 
his entire body to shake convulsively and to roll on the floor in pain 
as his sweat rolled off him like rain. The police continued to use 
electric shocks to torture him for several hours, during which time he 
fell in and out of conscious, almost to the point of death. On the 
second morning, the police set alight five cigarettes and let the smoke 
go into his nose and eyes, and pricked his genitals with toothpicks. 
They continued to use many forms of torture through the afternoon of 
the third day. By then, Gao Zhisheng was desperate to break free of 
this pain, and calling out the names of his two children, he began to 
smash his head against the table in an effort to kill himself. But his 
suicide attempt did not succeed, though it left Gao with swollen eyes 
and head, and blood running down his face. Gao Zhisheng begged his 
captors to put him in jail, but the police responded, ``If you think 
you're going to prison, dream on. We can make you disappear 
permanently! '' As they said this, they continued to cruelly torture my 
husband throughout the day until nighttime. At the end of it, Gao 
Zhisheng's eyes were so swollen from the smoke that he could no longer 
open his eyes and his skin was darkened all over at the places he had 
been touched by the electric batons. And the torture didn't end there 
and then.
    In an attempt to protect our two children and in a state of 
absolute terror, in January 2009, I escaped China with my daughter and 
son. On February 9, 2009, Gao Zhisheng again was kidnapped and 
disappeared.
    On September 25, 2009, Gao Zhisheng was hooded and taken away by 
several burly men of Uyghur ethnicity in front of secret police from 
Beijing. When Gao was being taken to a secret jail, his captors beat 
him severely with their fists. Upon arriving at the secret jail, they 
roughly stripped off his clothing and shoes, but leaving the black hood 
on, they proceeded to mercilessly beat and torture Gao for the next 48 
hours. One of the men punched his chin with his bare fists, and another 
grabbed his neck, dragged him backwards and shoved him into the wall. 
They began to throttle him, causing his lungs to lack air, blood to 
swell his brain, his eyeballs to protrude and almost pop out, and make 
him feel as if death were imminent. But unexpectedly, they loosened 
their grip, and Gao weakly leaned against the wall as he sank to the 
floor. Several of the thugs began to curse him, and started to 
shamelessly kick his legs, making Gao scream out in pain. Under the 
barrage of both curses and kicks, Gao couldn't move his legs anymore, 
and was shaking uncontrollably. When they were tired of hitting him, 
they sat down and ate. Following their break, they continued to beat 
Gao for a day and a night. They tried to force Gao to beg for mercy, 
but Gao refused, and they went crazy with anger and beat him till the 
sun rose the next day. But Gao didn't beg for mercy. One of the thugs 
cursed him, saying: ``You animal, if you don't kneel today, I'm 
definitely going to kill you.'' Sure enough, their beatings became even 
more inhuman! Gao's two legs and feet were already swollen and bent, 
yet they still harshly kicked him and with each kick, Gao suffered 
greatly. But Gao adamantly refused to kneel down. One of the thugs 
completely lost his cool and pointed a gun at Gao's forehead. Gao said 
to him, ``You are a spiritual pygmy, and don't have the guts to fire a 
gun.'' Gao's statement enraged the thug who angrily went into another 
room. Gao prepared for more torture and the result was that the thug 
returned with the gun wrapped in a pillow and put it against Gao's 
head. Gao lost conscious, thus easing his pain.
    One year later, in April 2010, Chinese Communist officials arranged 
for Gao Zhisheng to be interviewed by the Associated Press. During the 
interview, Gao didn't hew to the script prepared by the officials, and 
instead revealed to the Associated Press the truth of his being 
tortured. Gao again was ``disappeared'' following the interview.
    A period of torture in Beijing started, all of it done at night. On 
the evening of April 28, 2010, a group unexpectedly barged into Gao's 
cell room (this group turned out to be the same who conducted the 
torture in 2007). They rushed him from behind and began to throttle 
Gao, saying, ``Little boy, you've fallen again into the hands of your 
uncles! We'll do a good job of taking care of you! '' As before, they 
used a black hood to cover his head and tightly shackled his hands 
behind his back. They additionally put two pillow cases over the black 
hood and forced his body into a ninety degree angle. Two of them then 
forced Gao to kneel and they put him in a car, as if the whole process 
was a robbery. While in the car, the torture went on and on, like a 
living death. Two of the men were behind him, crushing his body, but 
this was a specially designed car that had no support. Gao was 
shackled, and from behind, the two were crushing him. What made it even 
worse was that he lacked oxygen under the thickly layered hoods. His 
labored breathing began to cause him to shake uncontrollably with sweat 
pouring off his body and his eyeballs about to pop out of his head. A 
little while later, his knees had gone completely numb and he 
momentarily felt his body disconnect from the physical pain. But when 
trying to get out of the car, Gao found that his legs were numb. He 
couldn't stand and fell to the ground whereupon the thugs began to kick 
him without mercy. Gao didn't even have the strength to curl up. 
Several of them raised him up, only to throw him back to the ground. 
One pulled his hood off, and another pulled him up into a half sitting 
position. Three of them unexpectedly began to hit him in the face for 
several minutes. One brought a lighted cigarette up to Gao's eyes and 
asked if he still wanted to write essays? After this, he struck Gao's 
chest with his knee. Gao heard himself cry out with an almost non-human 
sound, his eyes blurred, and it felt as if his head was spinning and he 
was floating in the ocean waves. But the non-human cry turned into a 
strong shout of pain because the thug suddenly loosened his hands and 
Gao's forehead smashed down on the ground. Gao began to vomit, with 
half of his face stuck to the ground. Gao's hands were still shackled 
behind his back so there was no way to reposition himself. The thugs 
were there smoking and cursing him. Once they finished their 
cigarettes, someone called Director Wang began to use an electric baton 
to strike Gao. Gao was in so much pain that he screamed in anguish, and 
words cannot fully describe that physical pain. They thought that, with 
enough time and cruelty, the torture would force Gao to kneel for 
mercy, but Gao never kneeled down. This utterly exasperated the thugs 
who beat him with greater fury. Finally, Gao was carried to an empty 
room where he was locked up for 21 months. In almost two years locked 
up there, the world didn't hear any news of Gao Zhisheng.
    According to the Communist Party authorities, the verdict of a 
``three-year sentence, suspended for five years'' should have ended by 
August 15, 2012 and Gao should have been able to go home. But after his 
disappearance of more than a year and a half, the words of his 
tormentors came true and it was as if he had ``disappeared.''
    Not until the end of 2011, following the period of the five-year 
suspended sentence, Xinhua issued a brief English news report that on 
December 16, Gao Zhisheng had violated the terms of his suspended 
sentence and had been sent back to jail to serve the entire three-year 
sentence. But within two weeks, there was no news of Gao serving his 
sentence at the prison, and his family had not yet seen the official 
paperwork or received any kind of notification about visits. The news 
also didn't mention what regulation Gao had violated or where he had 
been for 21 months or why Gao Zhisheng again had been disappeared. On 
January 1, 2012, Gao Zhisheng's older brother , Gao Zhiyi finally 
received a ``criminal imprisonment notification'' regarding Gao 
Zhisheng from Shahe Prison in the Xinjiang Uyghur Autonomous Region.
    Torture at the Shahe Prison came in disguised form. Gao Zhisheng 
was imprisoned in a small cell and for three years, did not feel fresh 
air on his face. From the very start of his detention, they played loud 
noises on a large speaker to disturb him, and this went on for 96 
weeks. All of Gao's teeth fell out from living in this horrific 
environment and being given poor quality food, resulting in his being 
unable to walk or speak. At the completion of serving his sentence, he 
was on the verge of death and had to be lifted out of his cell and 
carried home.
    Gao Zhisheng has sacrificed greatly on behalf of the Chinese 
people's freedom and human rights. Even though he lost his own freedom 
and suffered unspeakable torture, he never lost his belief in freedom 
and human rights. He adamantly believes that a free and democratic 
system will be realized in China in the near future. He sincerely hopes 
that the United States will be able to shoulder the moral 
responsibility of all humankind, and that the U.S. Government will be 
able to make human rights a key priority in U.S.-China relations. An 
increasingly powerful China, without human rights, is a threat to the 
United States and the whole world that can no longer be ignored.

    With thanks to God!
    Thank you all.

    Geng He
                                 ______
                                 

                    China's Pervasive Use of Torture

                             april 14, 2016

                          Witness Biographies

    Margaret K. Lewis, Professor of Law, Seton Hall University School 
of Law

    Professor Margaret Lewis's research focuses on China's legal system 
with an emphasis on criminal justice. She joined Seton Hall Law School 
as an Associate Professor in 2009. Professor Lewis is a graduate of the 
NYU School of Law and Columbia University, and also studied at the 
Hopkins-Nanjing Program. Her recent publications have appeared in the 
Columbia Journal of Transnational Law, NYU Journal of International Law 
and Politics, Vanderbilt Journal of Transnational Law, and Virginia 
Journal of International Law. She also co-authored the book Challenge 
to China: How Taiwan Abolished its Version of Re-Education Through 
Labor with Jerome A. Cohen. Professor Lewis participated in the U.S.-
China Legal Experts Dialogue in October 2015 at the invitation of the 
U.S. State Department. She is also a Term Member of the Council on 
Foreign Relations, a Public Intellectuals' Program Fellow with the 
National Committee on U.S.-China Relations, and an Affiliated Scholar 
of New York University School of Law's U.S.-Asia Law Institute.

    Jigme Gyatso, Tibetan monk, Tibetan language education advocate, 
and filmmaker

    Jigme Gyatso (a.k.a. Golog Jigme) was born in Serthar county, 
Sichuan province, and became a monk when he was 15 years old. He later 
joined the Labrang Monastery in Gansu province and has been involved in 
Tibetan language education advocacy, environmental protection, and 
earthquake relief. In 2007 and 2008, Jigme Gyatso worked with filmmaker 
Dhondup Wangchen to interview 108 Tibetans for the documentary 
``Leaving Fear Behind,'' which was shown prior to the start of the 
Olympics held in Beijing in August 2008. Chinese authorities detained 
Jigme Gyatso for two months in 2008, four months in 2009, and three 
months in 2012, during which he was severely tortured by Chinese public 
security personnel. In 2012, he escaped from detention in fear of his 
life, and spent one year and eight months on the run until he arrived 
in India in May 2014. He received asylum in Switzerland and has 
testified about his own experiences of torture and abuse to the UN 
Human Rights Council in Geneva, the European Parliament, and the 
International Olympic Committee, among others.

    Yin Liping, Falun Gong Practitioner

    Yin Liping is a Falun Gong practitioner who survived torture, 
forced labor, and sexual violence in Masanjia and other forced labor 
camps. Since 1999, she was arrested seven times and given three 
separate sentences totaling seven-and-half years. During her detentions 
she was often severely tortured and was sexually abused by both police 
and male prisoners. Her story is featured in the documentary ``Above 
the Ghost's Heads: The Women of Masanjia Labor Camp'' by former New 
York Times photographer Du Bin. In August 2013 she escaped from China 
to Thailand and, in December 2015, was granted refugee status in the 
United States.

    Sophie Richardson, China Director, Human Rights Watch

    Dr. Sophie Richardson serves as the China director at Human Rights 
Watch. A graduate of the University of Virginia, the Hopkins-Nanjing 
Program, and Oberlin College, She is the author of numerous articles on 
domestic Chinese political reform, democratization, and human rights in 
Cambodia, China, Indonesia, Hong Kong, the Philippines, and Vietnam. 
She has testified before the European Parliament and the US Senate and 
House of Representatives. She has provided commentary to the BBC, CNN, 
the Far Eastern Economic Review, Foreign Policy, National Public Radio, 
the New York Times, the Wall Street Journal, and the Washington Post. 
Dr. Richardson is the author of China, Cambodia, and the Five 
Principles of Peaceful Coexistence (Columbia University Press, Dec. 
2009), an in-depth examination of China's foreign policy since the 1954 
Geneva Conference, including rare interviews with policy makers.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
